<html>
<title> - THE EXECUTIVE PROCLAMATION DESIGNATING THE ORGAN MOUNTAINS-DESERT PEAKS A NATIONAL MONUMENT: IMPLICATIONS FOR BORDER SECURITY</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]




THE EXECUTIVE PROCLAMATION DESIGNATING THE ORGAN MOUNTAINS-DESERT PEAKS 
         A NATIONAL MONUMENT: IMPLICATIONS FOR BORDER SECURITY

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON OVERSIGHT

                       AND MANAGEMENT EFFICIENCY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 10, 2014

                               __________

                           Serial No. 113-77

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC] [TIFF OMITTED] 


                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________




                  U.S. GOVERNMENT PRINTING OFFICE
91-449                    WASHINGTON : 2015
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Paul C. Broun, Georgia               Yvette D. Clarke, New York
Candice S. Miller, Michigan, Vice    Brian Higgins, New York
    Chair                            Cedric L. Richmond, Louisiana
Patrick Meehan, Pennsylvania         William R. Keating, Massachusetts
Jeff Duncan, South Carolina          Ron Barber, Arizona
Tom Marino, Pennsylvania             Dondald M. Payne, Jr., New Jersey
Jason Chaffetz, Utah                 Beto O'Rourke, Texas
Steven M. Palazzo, Mississippi       Filemon Vela, Texas
Lou Barletta, Pennsylvania           Eric Swalwell, California
Richard Hudson, North Carolina       Vacancy
Steve Daines, Montana                Vacancy
Susan W. Brooks, Indiana
Scott Perry, Pennsylvania
Mark Sanford, South Carolina
Curtis Clawson, Florida
                   Brendan P. Shields, Staff Director
                   Joan O'Hara, Acting Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

          SUBCOMMITTEE ON OVERSIGHT AND MANAGEMENT EFFICIENCY

                 Jeff Duncan, South Carolina, Chairman
Paul C. Broun, Georgia               Ron Barber, Arizona
Lou Barletta, Pennsylvania           Donald M. Payne, Jr., New Jersey
Richard Hudson, North Carolina       Beto O'Rourke, Texas
Steve Daines, Montana, Vice Chair    Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (Ex             (Ex Officio)
    Officio)
               Ryan Consaul, Subcommittee Staff Director
                   Deborah Jordan, Subcommittee Clerk
           Tamla Scott, Minority Subcommittee Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Jeff Duncan, a Representative in Congress From the 
  State of South Carolina, and Chairman, Subcommittee on 
  Oversight and Management Efficiency............................     1
The Honorable Ron Barber, a Representative in Congress From the 
  State of Arizona, and Ranking Member, Subcommittee on Oversight 
  and Management Efficiency......................................     3

                               WITNESSES
                                Panel I

Hon. Stevan Pearce, A Representative in Congress From the State 
  of New Mexico:
  Oral Statement.................................................     5
  Prepared Statement.............................................     7

                                Panel II

Mr. Brandon Judd, President, National Border Patrol Council:
  Oral Statement.................................................    11
  Prepared Statement.............................................    12
Mr. Todd Garrison, Sheriff, Sheriff's Office, DonnA Ana County, 
  New Mexico:
  Oral Statement.................................................    13
  Prepared Statement.............................................    16
Mr. Marc R. Rosenblum, Deputy Director, U.S. Immigration Policy 
  Program, Migration Policy Institute:
  Oral Statement.................................................    24
  Prepared Statement.............................................    25

                             FOR THE RECORD

The Honorable Ron Barber, a Representative in Congress From the 
  State of Arizona, and Ranking Member, Subcommittee on Oversight 
  and Management Efficiency:
  Statement of Billy G. Garrett, Chairman, Donna Ana County 
    Commission, NM...............................................    44

                               APPENDIX I

The Honorable Ron Barber, a Representative in Congress From the 
  State of Arizona, and Ranking Member, Subcommittee on Oversight 
  and Management Efficiency:
  Statement of John Cornell on Behalf of the New Mexico Wildlife 
    Federation...................................................    57
  Letter.........................................................    58

                              APPENDIX II

Questions From Ranking Member Bennie G. Thompson for Brandon Judd    61
Questions From Ranking Member Bennie G. Thompson for Todd 
  Garrison.......................................................    62
Questions From Ranking Member Bennie G. Thompson for Marc R. 
  Rosenblum......................................................    63

 
THE EXECUTIVE PROCLAMATION DESIGNATING THE ORGAN MOUNTAINS-DESERT PEAKS 
         A NATIONAL MONUMENT: IMPLICATIONS FOR BORDER SECURITY

                              ----------                              


                        Thursday, July 10, 2014

             U.S. House of Representatives,
          Subcommittee on Oversight and Management 
                                        Efficiency,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 2:00 p.m., in 
Room 311, Cannon House Office Building, Hon. Jeff Duncan 
[Chairman of the subcommittee] presiding.
    Present: Representatives Duncan, Barletta, Hudson, Barber, 
Payne, and O'Rourke.
    Also present: Representatives Bishop, Salmon, Schweikert, 
and Gosar.
    Mr. Duncan. The Committee on Homeland Security Subcommittee 
on Oversight Management Efficiency will come to order. The 
purpose of this hearing is to receive testimony regarding the 
border security implications of the Organ Mountains-Desert 
Peaks National Monument. I will now recognize myself for an 
opening statement.
    On May 21, 2014, President Obama designated the Organ 
Mountains-Desert Peaks area in southern New Mexico as a 
National monument. The President's action ignored legislation 
introduced in both chambers of Congress which had buy-in and 
support from a broad coalition of State and local stakeholders 
and constituencies.
    Specifically, Congressman Steve Pearce introduced H.R. 995, 
which would have established an area in the Organ Mountains as 
a National monument, while granting law enforcement and other 
emergency personnel unfettered access to the monument.
    His bill had letters of support from the Governor of New 
Mexico, the Las Cruces Hispanic Chamber of Congress, Western 
Heritage Alliance, the Donna Ana Soil and Water Conservation 
District, Mesilla Valley Sportsmen's Alliance, and the National 
Association of Former Border Patrol Officers. I could go on and 
on, a lot of support for that legislation.
    Instead of allowing the legislative process to proceed, the 
President ignored the concerns of State and local law 
enforcement, ranchers, sportsmen, and others. He chose to 
designate the Organ Mountains-Desert Peaks area a monument with 
a stroke of a pen.
    Due to the President's designation the U.S. Border Patrol, 
as well as State and local law enforcement officers will be 
prevented from having full access to nearly 500,000 acres of 
land near the Mexican border. The Border Patrol must now comply 
with the requirements of several Federal land management laws, 
including the National Environmental Policy Act, the Wilderness 
Act, the Endangered Species Act, some of which will limit 
access to the monument, except for on foot or on horseback.
    Absent exigent circumstances such as an emergency or active 
pursuit of suspects, the Border Patrol will need to coordinate 
Federal land management agencies when agents undertake 
operations such as maintaining roads and installing 
surveillance equipment on Federal lands.
    According to Border Patrol a 2006 Memorandum of 
Understanding between the Departments of Homeland Security, 
Agriculture, and the Interior provides a necessary guidance for 
its activities on Federal lands. However, a Government 
Accountability Office, GAO, report from 2010 showed that this 
approach resulted in delays and restrictions of Border Patrol's 
monitoring and patrolling operations.
    Given that we are facing a major crisis along our Southwest 
Border, any decision that creates yet additional vulnerability 
is unacceptable. Human and drug smugglers have used the area 
for smuggling in the past. The Donna Ana County Sheriff's 
Office has apprehended drug smugglers, confiscated stolen cars 
used for human and drug trafficking, rescued injured 
individuals left by their smugglers.
    Due to the designation of the National monument, law 
enforcement at the local level and the Border Patrol will be 
restricted to the few paved surface roads, none of which 
traverse the entire 500,000 acres. The designation also 
prohibits the use of all-terrain vehicles off of paved road 
surfaces. The lack of roads throughout and access to all 
Federal lands of the monument creates a potential vulnerability 
for criminals and others to go unchecked.
    As a result, this newly-designated monument is practically 
an invitation to drug runners and human smugglers, as if they 
needed one. I have not even mentioned the possibility that 
those who would seek to harm the United States, including 
vicious drug cartels, transnational gangs and terrorist groups 
like Hezbollah or others who could try to breach our 
sovereignty in order to carry out possible heinous acts. It is 
critical for Border Patrol and State and local law enforcement 
to work together to determine how they will reduce the 
likelihood that this area becomes a sanctuary for these groups.
    In addition, despite the good intentions of trying to 
protect important environmental areas, this designation may 
have the opposite effect of harming this land. I doubt 
seriously that smugglers will protect it from pollution. Those 
patrolling will have less access to help prevent such abuse.
    It is truly ironic that President Obama said in 2008 that 
``the biggest problem that we are facing right now has to do 
with George Bush trying to bring more and more power in the 
Executive branch and not go through Congress at all. And that 
is what I intend to reverse when I am President of the United 
States of America.''
    He ignored Congress in this issue. Despite his hope and 
change rhetoric the President's aggressive unilateralism 
continues. The President's policies along the border continue 
to undermine Federal, State, and local efforts to secure the 
border and enforce the laws of the land. The President 
continues to take Executive Actions such as this to circumvent 
the Congress without considering the legitimate concerns of the 
very Americans living with the daily threats along the border.
    I have got a map here. I just wanted to show the audience. 
This is the area that we are talking about in red, right behind 
you there, Lou.
    It does not include the part at the bottom. It is just the 
area outlined in red, 500,000 acres. It is an original 
wilderness designated area right now under the border. But it 
is contiguous. I believe it is on the screen as well.
    El Paso, Texas is here. This is the area that we are 
talking about today. This line is the Southern Border with 
Mexico and New Mexico.
    I appreciate that. The Chairman will now recognize the 
Ranking Member of the subcommittee. The gentleman understands a 
very similar situation at a National monument in Arizona. The 
gentleman from Arizona, Mr. Barber, for any statement he may 
have.
    Mr. Barber. Well, thank you, Mr. Chairman. Thank you for 
convening this hearing.
    Let me start by giving some commendation. I am really 
pleased to know that in our second panel, Mr. Chairman, Mr. 
Brandon Judd, who is the president of the National Border 
Patrol Council is with us and will be talking with us shortly.
    One of the things that all too many Americans do not 
appreciate is the work that our men and women of the Border 
Patrol and the Customs Agents do every single day to protect 
their communities and to protect the country. Our Border Patrol 
Agents in particular work in very harsh terrains, some of the 
terrain that we are talking about today.
    Around every canyon is the potential of a smuggler heavily-
armed, ready to do battle. The men and women of the Border 
Patrol are courageous in doing their job every single day 
without regard to their own safety in many cases.
    Unfortunately, right now many of them have been pulled off 
this front-line duty. They are working as child-care providers 
in Texas and in Arizona. They are not on the line supporting 
the mission, carrying out the mission of border security.
    They are changing diapers and chasing kids around and 
bringing in their own toys and books to take care of these 
children. That has to be addressed. It can't be that we isolate 
that issue from what we are talking about here today.
    In today's hearing we have an opportunity to discuss the 
relationship between National monument designations that 
include land on or near the border, and the impact it might 
have on border security. On May 24--21 rather, 2014, the 
President, as the Chairman said, designated the Organ 
Mountains-Desert Peaks as a National monument. This 
proclamation includes, as you can see from the map, nearly 
500,000 acres of Federal land in New Mexico.
    It is important, I think we would all agree, that we 
preserve our Nation's lands in a responsible manner and that we 
are good stewards of the natural God-given resources and lands 
that we have, particularly in the areas that I represent and 
that Congressman Pearce represent, the southwest with its long 
history of native peoples who have lived there.
    Arizona in particular has a proud legacy of protecting and 
conserving our natural resources for current and future 
generations. It is both vital to our local economy and to our 
environment and to our history. It is also critically 
important, absolutely critical, that we protect our borders.
    The district I represent makes up about 83 miles of this 
border with Mexico. I am one of only nine Members of Congress 
who represent a district bordering Mexico. It is my job to 
ensure that the people who live and work along the border feel 
safe and secure in their homes and on their land.
    Unfortunately, compared to other sectors, the Tucson sector 
has a reported apprehension rate of 28 percent of people and 49 
percent seizure rate of drugs. These are some of the highest 
levels in the entire country. The system as it stands is just 
not working.
    When I go to border communities that I represent, and talk 
to ranchers and farmers and business owners and other people 
who live and work along the border, I hear the very real 
concerns that they have about feeling safe and secure in their 
homes. Many ranchers have told me that they won't go to town 
without taking their children with them because they are 
concerned about their safety at home.
    So we must do more to secure our borders, including 
developing measurements for how the border security is 
progressing. We must provide our agents with the tools they 
need, with a pay system that makes sense, and to ensure that 
they have the resources they need to effectively do their job.
    I want to make sure that as we think about and talk about a 
National monument we think about the agents and what they have 
to do and the security of our Nation. I look forward, Mr. 
Chairman, to hearing from our witnesses about the Organ 
Mountain-Desert Peaks National Monument and to get the facts 
about the monument, its rationale for creation or 
establishment, and how it affects or may affect border 
security.
    Thank you, Mr. Chairman. I yield back.
    Mr. Duncan. I thank the Ranking Member.
    I ask unanimous consent that the following Members be 
permitted to sit on the dais and participate in today's 
hearing. The gentleman from Utah, Mr. Bishop is with us. We may 
be joined by the gentleman from Arizona, Mr. Salmon, Mr. 
Schweikert, and Mr. Gosar. Without any objection, so ordered.
    Our first panel today consists of the Honorable Steve 
Pearce. Steve represents the Second Congressional District of 
New Mexico, which covers the region being designated as a 
National monument.
    First elected in 2002, Rep. Pearce served until 2009 when 
he decided to run for the United States Senate. He returned to 
the House in 2010. Prior to coming to Congress, Rep. Pearce 
spent time in the New Mexico House of Representatives.
    Thank you for being here. Your full written statement will 
appear in the record. But I will now recognize Mr. Pearce for 5 
minutes to testify.

 STATEMENT OF HON. STEVAN PEARCE, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF NEW MEXICO

    Mr. Pearce. Thank you, Chairman Duncan and Ranking Member 
Barber, for the invitation here to discuss the very real 
National security threats that can arise from the restrictive 
land management policies.
    I would also like to join Mr. Barber in recognizing the 
work of the Border Patrol. They work very difficult 
circumstances, and we all salute them here.
    I would also like to recognize behind me Sheriff Todd 
Garrison. He is Donna Ana County sheriff. Appreciate your 
invitation for him to testify today. He is a fourth generation 
resident of Las Cruces, NM area, and has been a great sheriff. 
I am pleased to call him friend. We worked together on many of 
the issues that affect the second district.
    The issue of security along the border that arises from 
restrictive land management policies is one that is often 
overlooked here in Washington. People are removed from the 
situation, don't see it every day.
    Again, these big, wide open areas that Congressman Barber 
and I represent are very, very difficult to secure. The 
situation doesn't just exist on the Southern Border. The 
problems of security exist on the Northern Border, as well.
    When you get to the Federal lands along the border then the 
situation becomes even more difficult. I believe that history 
is going to give us some insight as to potential for security 
threats within the lands that have been recently designated and 
the surrounding communities, the threats that they are going to 
face.
    For years the Organ Pipe Cactus National Monument in 
southern Arizona has been a human and drug smuggling corridor. 
In 2002 a park ranger, Kris Eggle, was killed in the monument 
by drug smugglers.
    While a vehicle barrier was constructed around the monument 
after Ranger Eggle's murder, the border south of the monument 
is nowhere near secure. I would put up Slide 1 for you to take 
a look at. That slide shows the signs that warn American 
citizens not to go beyond the certain point in these areas that 
are inside the U.S. jurisdictional boundaries that they lie in 
the monuments where it is more difficult for Federal agents or 
Federal officials to patrol.
    Large portions of the monument are either not accessible to 
the public, or only accessible when traveling with armed park 
rangers. On the Organ Pipe Cactus Monument website, the Park 
Service states that illegal border crossings and activities, 
including drug smuggling, occur daily.
    Slide 2, if we see that, in some areas you will find 
backpacks, abandoned clothes, and trash left behind from people 
crossing the border illegally, usually carrying substances that 
we don't like to invite into this country, drugs, or whatever. 
I don't think that this is what President Franklin Roosevelt 
envisioned when he designated that monument in 1937.
    On Slide 3, in the eastern half of Arizona sits Chiricahua 
National Monument. While it lies north of Douglas, Arizona, a 
decent stretch north of the U.S.-Mexico border, it is also a 
haven for drug traffickers.
    Last year a Park Service employee was the victim of a 
brutal assault by a drug smuggler in broad daylight. The victim 
was bludgeoned with a rock until she passed out and nearly 
died. The suspect stole her vehicle and luckily was arrested 
the next day for drug smuggling.
    The Chiricahua Monument is known to have cartel lookout 
points to signal the optimum time for a smuggler to make his or 
her way through the monument. Is this what President Coolidge 
had in mind for violators and Park Service--for visitors and 
Park Service personnel when he designated this monument?
    Keep in mind that many of these nightmare scenarios have 
occurred despite a 2006 Memorandum of Understanding between the 
Department of the Interior, Department of Homeland Security 
designating the facilities better Border Patrol access. These 
stories are all too common on Federal lands near the border. I 
am afraid that history will repeat itself in the newly 
designated Organ Mountains-Desert Peaks National Monument.
    If we put up Slide 4 at this point, as the following map 
shows, all 180 miles of New Mexico's Southern Border are 
designated as High-Intensity Drug Trafficking Areas by the 
Department of Justice. The Southwest Border is of course where 
the vast majority of people coming across the border illegally 
are apprehended and narcotics shipments are seized.
    Then finally on Slide 5, the Portrillo Mountains, a part of 
the Organ Mountains-Desert Peaks National Monument, closest to 
the border on the map, currently has restrictions on motorized 
vehicle use. Local and State officials express strong 
objections to the President's unilateral monument designation 
because of the Federal Government's questionable law 
enforcement record in protected areas.
    This is why I offer the legislation that would have created 
a smaller monument footprint, far away from the border, with 
guaranteed unfettered access for law enforcement personnel.
    I fear that what we have seen on the border in Arizona will 
happen in New Mexico. My constituents fear that also. There 
must be guaranteed access for all law enforcement personnel, 
including the ability to chase a suspect while off road--with 
an off-road vehicle.
    Mr. Chairmen and Members of the committee, again I thank 
you for looking into this issue. Many places on our borders are 
in precarious and volatile situations, for our tourists and 
residents. It is not a matter of partisanship, simply a 
reality. The safety of these people visiting our treasured 
landscapes is a paramount issue for the Federal Government to 
manage and take seriously.
    We all want this pristine area protected for generations to 
come. But those who have the privilege of visiting the Organ 
Mountains and other protected areas have a right to be 
protected. I hope that today's hearing will shed some light on 
how those who would do harm to our communities take advantage 
of restricted access for the public and law enforcement. Yield 
back.
    [The prepared statement of Mr. Pearce follows:]
                Prepared Statement of Hon. Steve Pearce
                             July 10, 2014
    Chairman McCaul, Ranking Member Thompson, Members of the committee: 
Thank you for inviting me here today to discuss the very real National 
security threats that can arise from restrictive land management 
policies. I'd also like to extend my appreciation for your invitation 
to Donna Ana County Sheriff Todd Garrison. He's a fourth-generation 
resident of the Las Cruces, NM area, and a great sheriff. I am honored 
to call him a friend.
    This issue is often overlooked by people in Washington, who are far 
removed from the reality of the security situation on our Southern 
Border. It goes without saying that both our Northern and Southern 
Borders are not secure, and this is even truer on Federal lands near 
the border, especially in areas that deserve protective status. I 
believe that history will give us some insight as to the potential for 
security threats within these lands and surrounding communities.
    For years, the Organ Pipe Cactus National Monument in Southern 
Arizona has been a human and drug smuggling corridor. In 2002, Park 
Ranger Kris Eggle was killed in the Monument by drug smugglers. While a 
vehicle barrier was constructed around the monument after Ranger 
Eggle's murder, the border south of the monument is nowhere near 
secure. (Slide 1) Signs warn American citizens not to go beyond certain 
points, and large portions of the monument are either not accessible to 
the public, or are only accessible when traveling with armed Park 
Rangers. On the Organ Pipe Cactus Monument website, the Park Service 
states that ``illegal border crossings and activities, including drug 
smuggling, occur daily.'' (Slide 2) In some areas you find backpacks, 
abandoned clothes, and trash left behind from people crossing the 
border illegally. Is this what President Franklin Roosevelt envisioned 
when he designated the monument in 1937? 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    (Slide 3) In the Eastern half of Arizona sits the Chiricahua 
National Monument. While it lies north of Douglas, AZ, a decent stretch 
north of the U.S.-Mexico border, it's also a haven for drug 
traffickers. Last year, a Park Service employee was the victim of a 
brutal assault by a drug smuggler in broad daylight. The victim was 
bludgeoned with a rock until she passed out, and nearly died. The 
suspect stole her vehicle, and luckily was arrested the next day for 
drug smuggling. The Chiricahua Monument is known to have cartel lookout 
points to signal the optimum time for a smuggler to make his or her way 
through the Monument. Is this what President Coolidge had in mind for 
visitors and Park Service personnel when he designated this monument?
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Keep in mind that many of these nightmare scenarios have occurred 
despite a 2006 Memorandum of Understanding between the Department of 
the Interior and Department of Homeland Security designed to facilitate 
better Border Patrol access.
    These stories are all too common on Federal lands near the border, 
and I am afraid that history will repeat itself in the newly-designated 
Organ Mountains-Desert Peaks National Monument. (Slide 4) As the 
following map shows, ALL 180 miles of New Mexico's Southern Border are 
designated as High Intensity Drug Trafficking Areas by the Department 
of Justice. The Southwest Border is of course where the vast majority 
of people coming across the border illegally are apprehended, and 
narcotics shipments are seized. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    (Slide 5) The Potrillo Mountains, the part of the Organ Mountains-
Desert Peaks National Monument closest to the border on the map, 
currently has restrictions on motorized vehicle use. Local and State 
officials expressed strong objections to the President's unilateral 
monument designation because of the Federal Government's questionable 
law enforcement record in protected areas. This is why I offered 
legislation that would have created a smaller monument footprint far 
away from the border with guaranteed, unfettered access for all law 
enforcement personnel. I fear that what we've seen on the border in 
Arizona will happen in New Mexico. There must be guaranteed access for 
all law enforcement personnel, including the ability to chase a suspect 
with an off-road vehicle. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Chairman and Members of the committee, I again thank you for 
looking into this issue. Many places on our borders are in a precarious 
and volatile situation for tourists and residents. This isn't a matter 
of partisanship--it's simply reality. The safety of the people visiting 
our treasured landscapes is a paramount issue for the Federal 
Government to manage, and take seriously. We all want this pristine 
area protected for generations to come, but those who have the 
privilege of visiting the Organ Mountains and other protected areas 
have a right to be protected. I hope that today's hearing will shed 
some light on how those who would do harm to our communities take 
advantage of restricted access for the public and law enforcement.

    Mr. Duncan. Mr. Pearce, thank you for your testimony today. 
The committee greatly appreciates it. You offer a lot of 
insight into this issue. I appreciate the legislation you put 
forward, which I am sure will be discussed today. So I thank 
you for that.
    Before I call up the next panel, the Chairman will also ask 
unanimous consent. I welcome the gentleman from Pennsylvania, 
Mr. Barletta, a Member of the full committee, who will sit on 
the dais with us today and participate.
    One thing I skipped over, other Members of the subcommittee 
are reminded that opening statements may be submitted for the 
record. You can do so, as needed.
    So, Mr. Pearce, thank you so much. We will call up the 
second panel.
    Since the time--while you gentleman continue to get seated 
we will go ahead, and I will introduce each of you and then I 
will recognize you in turn.
    Mr. Brandon Judd is the president of the National Border 
Patrol Council and has over 17 years of Border Patrol 
experience. National Border Patrol Council, NBPC, is a 
professional labor union representing more than 17,000 Border 
Patrol Agents and support staff. The NBPC was founded in 1967. 
Its executive committee is comprised of current and retired 
Border Patrol Agents.
    Our second panelist is Sheriff Todd Garrison, the sheriff 
of Donna Ana County, New Mexico, a position he has held since 
2005. The monument is located within the sheriff's county, and 
the Sheriff's Office has led efforts to apprehend drug and 
human smugglers, rescue injured illegal immigrants left behind 
by the smugglers, and countered drug cartel violence that has 
been prevalent in the area.
    The third panelist, Dr. Marc Rosenblum, is the deputy 
director of the Migration Policy Institute's Immigration Policy 
Program where he works on U.S. immigration policy, immigration 
enforcement, and U.S. regional migration relations. Dr. 
Rosenblum returned to MPI where he had been senior policy 
analyst after working as a specialist to Immigration Policy at 
the Congressional Research Service.
    Thank you guys for being here today. The Chairman will now 
recognize Mr. Judd to testify first for 5 minutes.

 STATEMENTS OF BRANDON JUDD, PRESIDENT, NATIONAL BORDER PATROL 
                            COUNCIL

    Mr. Judd. Chairman Duncan, Ranking Member Barber, Members 
of the committee. On behalf of the 16,500 rank-and-file Border 
Patrol Agents whom I represent, I want to thank you for holding 
this hearing.
    During my years in the Border Patrol I have seen how 
decisions made in Washington can directly affect border 
security. For that reason I am pleased to offer my thoughts on 
the impact of designating the Organ Mountains-Desert Peaks area 
as a National monument.
    Two things need to be in place for border security. The 
first is sufficient manpower in the way of trained Border 
Patrol Agents in a given area of operation. The second is the 
ability to deploy a full suite of border security technology. 
This includes seismic sensors, cameras, communication 
equipment, fencing, and even aircraft.
    Currently about 40 percent of the 1,900-mile Southwest 
Border is owned by the Federal Government. Border Patrol Agents 
need access to the land to track and find illegal aliens and 
narcotics smugglers. However, our ability to access Federal 
lands has been varied. The level of cooperation we receive from 
the Departments of Interior and Agriculture have been dependent 
on the attitude and resources of the individual land managers.
    As a law enforcement officer I am fully cognizant that we 
are a Nation of laws. The 16,500 Border Patrol Agents know that 
there are numerous environmental regulations governing access 
to Federal land. However, a balance must be struck between 
border security and requirements for environmental protection 
required under the National Environmental Policy Act, the 
Wilderness Act, and the Endangered Species Act.
    Several negotiations ultimately led to a 2006 Memorandum of 
Understanding between USDA, Interior, and DHS that resulted in 
improved access and better interagency cooperation in more 
recent years. However, the Government Accountability Office 
found in 2011 that about half of the Border Patrol stations 
that are assigned to patrol Federal lands experienced delays, 
some lasting more than 6 months, in accessing USDA and Interior 
land. This kind of delay is unacceptable, and its impact on 
Border Patrol operations are real.
    In terms of how we can improve the current system, I would 
offer the committee two thoughts.
    The first is that it has been suggested that Border Patrol 
Agents be allowed to use its own funds to conduct any 
environmental assessments needed as required under various 
environmental regulations. In theory I support this, but 
understand that under sequestration we have 5 percent less 
manpower on the board than we did last year.
    In addition, we do not have enough money for gasoline and 
we have resorted to agents riding two to a vehicle instead of 
patrolling individually, as we have always done to maximize 
coverage. This is a budgetary reality we are in today. I would 
not support funding being diverted from manpower to conduct 
environmental assessments.
    The second comment is that USDA and Interior land managers 
need to better balance the impact the Border Patrol's presence 
has on Federal land against the potential impact from illegal 
immigration and narcotic smuggling. We are often told that no 
access to Federal land is possible due to environmental 
concerns.
    However, Border Patrol Agents go onto Federal land with the 
single purpose of tracking illegal aliens. We try to accomplish 
this mission as quickly and as efficiently as we can, with as 
little disturbance to the environment as possible. I have 
personally seen from my time in Arizona how pristine landscapes 
can be quickly destroyed after illegal encampment covered in 
trash and waste.
    What will be the impact to this National monument 
designation on the border security? The honest answer is, I 
don't know. That will largely depend on the attitude of the 
monument's land manager, whether he or she has the proper 
resources to respond to Border Patrol's request, and whether 
this committee will hold the Department of Interior 
accountable.
    Again, I want to thank you for having this hearing and 
inviting me to testify.
    [The prepared statement of Mr. Judd follows:]
                   Prepared Statement of Brandon Judd
                             July 10, 2014
    Chairman Duncan, Ranking Member Barber, Members of the committee, 
on behalf of the 16,500 rank-and-file Border Patrol Agents whom I 
represent, I would like to thank you for holding this hearing.
    My name is Brandon Judd and I am the president of the National 
Border Patrol Council. I have been a Border Patrol Agent for 17 years 
and I am currently assigned in Maine. Most of my career however has 
been spent in the El Centro, California and Tucson, Arizona sectors.
    During my years in the Border Patrol, I've seen how decisions made 
in Washington can directly affect border security. For that reason I am 
pleased to offer my thoughts on the impact of designating the Organ 
Mountains-Desert Peaks area as a National monument.
    Two things need to be in place for border security. The first is 
sufficient manpower in the way of trained Border Patrol Agents in a 
given area of operation. The second is the ability to deploy a full 
suite of border security technology. This includes seismic sensors, 
cameras, communication equipment, fencing, and even aircraft.
    Currently about 40 percent of the 1,900-mile Southwest Border is 
owned by the Federal Government. Border Patrol Agents need access to 
the land to track and find illegal aliens and narcotics smugglers. 
However, our ability to access Federal lands has been varied and the 
level of cooperation we receive from the Departments of Interior and 
Agriculture has been dependent of the attitude and resources of 
individual land managers.
    As a law enforcement officer, I am fully cognizant that we are a 
Nation of laws. The 16,500 Border Patrol Agents know that there are 
numerous environmental regulations governing access to Federal land. 
However, a balance must be struck between border security and the 
requirements for environmental protection required under the National 
Environmental Policy Act, the Wilderness Act, and the Endangered 
Species Act. Several negotiations ultimately led to a 2006 Memorandum 
of Understanding between USDA, Interior, and DHS that resulted in 
improved access and better inter-agency cooperation in more recent 
years.
    However, the Government Accountability Office found in 2011 that 
about half of the Border Patrol stations that are assigned to patrol 
Federal lands experienced delays, some lasting more than 6 months, in 
accessing USDA and Interior land. This kind of delay is unacceptable 
and its impact on Border Patrol operations are real.
    In terms of how we can improve the current system, I would offer 
the committee two thoughts. The first is that it has been suggested 
that Border Patrol be allowed to use its own funds to conduct any 
environmental assessments needed, as required under various 
environmental regulations. In theory, I support this but understand 
that under sequestration we have 5 percent less manpower on the border 
than we did last year. In addition, we do not have enough money for 
gasoline and we have resorted to Agents riding three to a vehicle 
instead of patrolling individually as we have always done to maximize 
coverage. This is the budgetary reality we are in today. I would not 
support funding being diverted from manpower to conduct environmental 
assessments.
    The second comment is that USDA and Interior land managers need to 
better balance the impact the Border Patrol's presence has on Federal 
land against the potential impact from illegal immigration and 
narcotics smuggling. We are often told that no access to Federal land 
is possible due to environmental concerns. However, Border Patrol 
Agents go onto Federal land with the single purpose of tracking illegal 
aliens. We try to accomplish this mission as quickly and as efficiently 
as we can, with as little disturbance to the environment as possible. I 
have personally seen from my time in Arizona how pristine landscapes 
can be quickly destroyed after illegal encampment, covered in trash and 
waste.
    What will be the impact of this National Monument designation on 
border security? The honest answer is that I do not know. That will 
largely depend on the attitude of the Monument's land manager, whether 
he or she has the proper resources to respond to Border Patrol's 
requests, and whether this committee will hold the Department of 
Interior accountable.
    Again, thank you for the opportunity to testify and I would be 
happy to answer any questions that you might have.

    Mr. Duncan. Thank you for your testimony.
    The Chairman recognizes Sheriff Garrison for 5 minutes.

 STATEMENT OF TODD GARRISON, SHERIFF, SHERIFF'S OFFICE, DONNA 
                     ANA COUNTY, NEW MEXICO

    Sheriff Garrison. Mr. Chairman, Chairman Duncan, Ranking 
Member Barber, and Members of the committee, thank you for 
letting me speak with you today. Also, I am the sheriff of 
Donna Ana County and also the chairman of the Southwest Border 
Sheriffs' Association.
    I come before you to illustrate a beautiful part of the 
country that I have called home since the day I was born, and 
for which I have been elected by my constituents to protect. 
Unfortunately, in my opinion, the safety and welfare of the 
people in our part of the country is at risk following the 
President's designation of the Organ Mountains-Desert Peaks 
National Monument.
    Donna Ana County is where you will find some of the 
Nation's most treasured assets. Some would call an agricultural 
contradiction: Fertile desert that produces pecans, cotton, 
alfalfa, onions, cabbage, and arguably the best green chili in 
the world.
    We are home to the pristine gypsum dunes of White Sands, El 
Camino Real, or the royal highway upon which Don Juan de Onnate 
led a group of settlers during the Spanish Conquest in the 16th 
Century. We are also home to some of the most picturesque 
mountain ranges of the southern-most tip of the Rockies.
    The Donna Ana County Sheriff's Office has protected this 
area from criminal activity along the border, something we have 
been doing day and night since 1852. I feel this designation is 
a very real threat, not only to what we are doing, but to our 
National security and the safety of the public.
    In 2007, in response to an increase in cross-border 
criminal activity, the Donna Ana County Sheriff's Office 
created a task force dedicated to regular patrols of nearly 51 
miles of Donna Ana County that skirt the U.S.-Mexico border.
    One of our most valuable assets is Operation Strongwatch, a 
mobile eye-in-the-sky surveillance unit with night vision, GPS-
position tracking, and 6-mile camera range that has capability 
to take both still pictures--or still photos and video 
recordings. This task force has apprehended and documented 
several examples of what I have referred to as criminal 
activity, criminal border activity.
    We have intercepted mules, or individuals who use 
themselves as cargo carriers to transport illegal drugs from 
Mexico to the United States. Our interdiction teams have made 
significant busts, arresting suspects who utilize the remote 
areas of our county because they think they are the roads less 
traveled. They use whatever they can to get the job done. If 
not on their own person, disguised in bags or hidden 
compartments of their vehicles.
    Aside from bringing drugs across the border, these 
transnational networks are also moving human cargo. Sometimes 
we discover the bodies of those who have fell victim to the 
relentless elements of the desert. Sometimes we find evidence 
that they have been there, dumping their supplies along the 
way, and trading out traceable footwear for crude carpet shoes 
that allow them to go undetected through the desert.
    All of this activity happens in the very area that is now 
Federally-protected at a cost to National security, known as 
the Organ Mountains-Desert Peaks National Monument. The current 
administration placed this project on priority status in 2009. 
Twice New Mexico Senators Tom Udall and Martin Heinrich brought 
the proposition to the people of Donna Ana County and the 
people rejected the idea. Twice legislation was introduced in 
Congress and twice it was voted down.
    Congressman Steve Pearce introduced legislation to protect 
the Organ Mountains, which I completely supported. But the two 
Senators went around the Organ Mountains bill and straight to 
the President to overrule the will of the people by deception 
to create the monument. Now why do you think these two Senators 
would do that?
    I have tried asking them personally, extending an 
invitation for a guided tour of our area. The Senators have 
never taken me up on that offer. In fact, they have never 
stepped foot in my office to discuss with me the mounting 
threats to public safety this designation will create.
    But they haven't ignored the scores of environmental groups 
that aggressively seek extra protection for Federal lands along 
the U.S.-Mexico border, and the accessed interest of 
transnational criminals that utilize drug and alien smuggling 
corridors in the United States on Federally-protected land. 
Areas like the one contained in the President's newly-
designated National monument in Donna Ana County.
    This so-called groundswell of support for a National 
monument was backed by U.S. Senators, State representatives, 
county commissioners, the city mayor and city council, some of 
which are employed by Wilderness Alliance groups. Is there 
anyone here who wouldn't agree that taking a paycheck from an 
environmental group with an agenda is a conflict of interest?
    Just next door to us in Arizona, and it bears a similar 
name, the Organ Pipe Cactus National Monument. This vast area 
along the U.S.-Mexico border in Arizona is now a haven for 
criminals, so much that signs greet park visitors warning them 
that the dangers that lurk in these Federally-protected lands. 
It has now caught the attention of the one faction of 
international commerce that needs minimally-patrolled areas to 
conduct their business, the Mexican cartels.
    Both Senators Heinrich and Udall say that they will 
continue to grant the Sheriff's Office access to patrol. But I 
can't honestly believe that to be true when neither one of them 
have given me the opportunity to discuss with them what is 
needed on the border to provide adequate protection of the 
National monument designations made. It has already been signed 
into law.
    We cannot continue to rely on the past practices of the 
U.S. Government to predict future performance when it comes to 
National parks and monuments. As an elected official who is 
accountable to my constituents, I have to ask this question for 
them. What segment of the population will this monument be 
available to, the American citizens or Mexican cartels?
    The average person doesn't understand the very real and 
very dangerous implications of a National monument designation 
on the border. By protecting this land by way of a National 
monument we have essentially exposed the people of Donna Ana 
County and the rest of the Nation to the pitfalls of criminal 
activity along the border.
    This designation flies in the face of what the U.S. 
Government is already doing to secure the border, adding more 
Border Patrol Agents along the U.S.-Mexico border and pumping 
millions of dollars of Federal grant money to local law 
enforcement agencies like Donna Ana County Sheriff's Office to 
put more patrols in the area to mitigate criminal activity.
    I would ask: What are the criteria for a National monument? 
Are we meeting it? I don't think so. As a New Mexico sheriff 
and the sitting chair of the Southwest Border Sheriffs' 
Association, I am going on record saying there appears to me a 
nexus between environmental groups aggressively seeking extra 
protections for these Federal lands.
    We have seen this in many of our wilderness and monument 
areas in California, Arizona, Montana, New Mexico, and in other 
States where people can go and hide from law enforcement. They 
have created clandestine drug-growing areas in these Federal 
lands, hosting criminals to protect their drug business from 
whatever comes their way.
    In my opinion, the ones who are benefitting the most from 
this area we are protecting for our future generations are the 
transnational criminals who have learned to take advantage of 
the fact that these areas are remote, they are limited to 
vehicular traffic, and they are now at risk of becoming limited 
to local law enforcement that has been sworn to protect it.
    Sir, I thank you for this time, and will stand for any 
questions.
    [The prepared statement of Sheriff Garrison follows:]
                  Prepared Statement of Todd Garrison
                             July 10, 2014
    Chairman Duncan, Ranking Member Barber, and Members of the 
committee, thank you for letting me speak with you today.
    My name is Sheriff Todd Garrison. I am a certified law enforcement 
officer sworn to protect the citizens of Donna Ana County since I took 
office in 2005. I also serve as the chairman of the Southwest Border 
Sheriffs' Association.
    I come before you to illustrate a beautiful part of our country 
that I've called home since the day I was born, and for which I have 
been elected by my constituents to protect. Unfortunately--and in my 
opinion--the safety and welfare of the people in our part of the 
country is at risk following the President's designation of the Organ 
Mountains Desert Peaks National Monument.
    Donna Ana County is where you will find some of the Nation's most 
treasured assets. Some would call us an agricultural contradiction--a 
fertile desert that produces cotton, alfalfa, onions, cabbage, and 
arguably the best green chile in the world. We are home to the pristine 
gypsum dunes at White Sands and the Camino Real, or the Royal Highway 
upon which Don Juan de Onnate led a group of settlers during the 
Spanish Conquest in the 16th Century. We are also home to some of the 
most picturesque mountain ranges at the southernmost tip of the 
Rockies.
    Those mountain ranges--the Organs, the Donna Anas, the Las Uvas, 
the Potrillos and the Robledos--are part of the newly-designated Organ 
Mountains Desert Peaks National Monument. I'm not before you today to 
dispute the value of those beautiful treasures to our generation and to 
future generations. I agree they should be protected. My testimony is 
how the Donna Ana County Sheriff's Office has protected this area from 
criminal activity along the border--something we've been doing day and 
night since 1852--and how this designation is a very real threat, not 
only to what we are doing, but to our National security and the safety 
of the public.
    In 2007, in response to an increase in cross-border criminal 
activity, the Donna Ana County Sheriff's Office created a task force 
dedicated to regular patrols of nearly 51 miles in Donna Ana County 
that skirt the U.S./Mexico border. It is a rugged, remote area that is 
extremely difficult to patrol. The conditions in that part of the 
desert are harsh on both personnel and equipment. One of our most 
valuable assets at our disposal is Operation Strongwatch (1), a mobile 
``eye in the sky'' surveillance unit with night vision, GPS-position 
tracking and a 6-mile camera range that has the capability to take both 
still photos and video recordings. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

(1) Operation Strongwatch is a mobile surveillance unit used to detect 
criminal border activity day and night.

    This task force has apprehended and documented several examples of 
what I've referred to as criminal border activity. We have intercepted 
mules (2), or individuals who use themselves as cargo carriers to 
transport illegal drugs from Mexico to the United States. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

(2) An example of a ``mule'' or smuggler who use themselves as cargo 
carriers in Donna Ana County.

    Our interdiction teams have made significant busts, arresting 
suspects who utilize the remote areas of our county because they think 
they are the roads less traveled (3). 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

(3) This recent cache of marijuana was made near the newly-designated 
Organ Mountains Desert Peaks National Monument, an area that has long 
been attractive to smugglers.

    They use whatever they can to get the job done--if not on their own 
person, disguised in bags (4) or in hidden compartments of their 
vehicles. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

(4) Bags filled with illegal narcotics are smuggled through the desert 
when suspects think they can go undetected.

    Aside from bringing drugs across the border, these transnational 
networks are also moving human cargo. Sometimes we discover the bodies 
of those who fell victim to the relentless elements of the desert. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

(5) Food supplies and clothing is often dumped in the desert when 
illegal aliens are transferred from one human smuggler to the next on 
their journey.

    Sometimes we just find evidence that they've been there, dumping 
their supplies along the way (5) and trading out traceable footwear for 
crude carpet shoes that allow them to go undetected through the desert. 
(6) 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

(6) These carpet shoes were discovered by a Donna Ana County Sheriff's 
deputy on regular patrol near the U.S./Mexico border.

    Some of our discoveries are historic to the area. Part of our 
unique heritage is the fact that our deserts were once used as bombing 
ranges for target-practicing pilots of the World War II era. Unexploded 
ordnance can still be found in the area, as evidenced by our task 
force. (7,8) 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

(7). 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

(8).

    All of this activity happens in the very area that is now 
Federally-protected at a cost to National security--known as the Organ 
Mountains Desert Peaks National Monument. Most of you know this history 
of this issue. The current administration placed this project on 
priority status in 2009. Twice, New Mexico Senators Tom Udall and 
Martin Heinrich brought the proposition to the people of Donna Ana 
County and the people rejected the idea. Twice legislation was 
introduced in Congress and twice it was voted down. Congressman Steve 
Pearce introduced legislation to protect the Organ Mountains (9[a])--
which I completely supported--but the two Senators went around the 
Organ Mountains Bill and straight to the President to over-rule the 
will of the people by deception to create the monument. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

(9[a]) The Organ Mountains are an iconic symbol of the Mesilla Valley 
and Donna Ana County. Their protection has never been disputed by the 
Donna Ana County Sheriff's Office.

    Now, why do you think the two Senators would do that? I've asked 
myself that same question countless times. I've tried asking them 
personally, extending an invitation for a guided tour of the area. The 
Senators never took me up on that offer. In fact, they've never stepped 
foot in my office to discuss with me the mounting threats to public 
safety that this designation will create. They have essentially ignored 
it.
    But what they haven't ignored are the scores of environmental 
groups that aggressively seek extra protections for Federal lands along 
the U.S.-Mexico border and the access interests of the transnational 
criminals that utilize drug and alien-smuggling corridors into the 
United States on Federally-protected land--areas like the one contained 
in the President's newly-designated National monument in Donna Ana 
County. This so-called groundswell of support for the National monument 
was backed by U.S. Senators, State Representatives, county 
commissioners, the city mayor, and city council--some of which are 
employed by the Wilderness Alliance Group. Is there anyone here who 
wouldn't agree that taking a paycheck from an environmental group with 
an agenda is a conflict of interest?
    Ironically, we've seen this type of land-grab before, just next 
door to us in Arizona, and it bears a similar name--the Organ Pipe 
Cactus National Monument. This vast area along the U.S.-Mexico border 
in Arizona is now a haven for criminals. So much that signs greet park 
visitors warning them of the dangers that lurk in these Federally-
protected lands (9[b]). 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

(9[b]) Although the Organ Pipe Cactus National Monument in Arizona is 
open to the public, sightseeing and travel are heavily discouraged due 
to active drug smuggling, human trafficking, and armed criminals within 
the Federally-protected lands.

    This area sees much of the same cross-border activity that Donna 
Ana County does, but now on a much bigger scale (10) because of the 
Federal protections U.S. Government has given it. It's now caught the 
attention of the one faction of international commerce that needs 
minimally-patrolled areas to conduct their business--the Mexican 
cartels. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

(10) Arroyos in the Organ Pipe Cactus National Monument have become 
littered with trash left behind by human smuggling networks.

    As we sit here today, one lone BLM ranger is tasked with patrolling 
and protecting the southern region of New Mexico. One ranger. How can 
anyone argue that one ranger can properly protect a monument of this 
size--in addition to what they are already patrolling? Both Senators 
Heinrich and Udall say they will continue to grant the sheriff's office 
access to patrol, but I can't honestly believe that to be true when 
neither one of them have given me the opportunity to discuss with them 
what's needed on the border to provide adequate protection if a 
National monument designation is made. And it's already been signed 
into law.
    We cannot continue to rely on the past practices of the U.S. 
Government to predict future performance when it comes to National 
parks and monuments. As an elected official who is accountable to my 
constituents, I have to ask this question for them: What segment of the 
population will this monument be available to--American citizens or 
Mexican cartels? The average person doesn't understand the very real--
and very dangerous--implications of a National monument designation on 
the border.
    By protecting this land by way of a National monument, we have 
essentially exposed the people of Donna Ana County and the rest of the 
Nation to the pitfalls of criminal activity along the border, and this 
designation flies in the face of what the U.S. Government is already 
doing to secure the border--adding more Border Patrol Agents along the 
U.S.-Mexico border, and pumping millions of dollars in Federal grant 
money to local law enforcement agencies like the Donna Ana County 
Sheriff's Office to put more patrols in the area to mitigate criminal 
activity.
    National Monuments should be reserved for pristine, unfettered 
areas. This designation includes an area that is absolutely not 
pristine--it is rugged, remote, and brutal to anyone who is not 
familiar with harsh desert conditions. It doesn't fall into the 
quintessential Yellowstone/Yosemite/White Sands monuments. These areas 
within the Organ Mountains Desert Peaks National Monument have been 
used for ranching, recreation, and a bombing range. What are the 
criteria for a National monument? Are we meeting it? I don't think so.
    As a New Mexico sheriff, and the sitting chair of the Southwest 
Border Sheriff's Association, I am going on record saying there appears 
to me a nexus between environmental groups aggressively seeking extra 
protections of these Federal lands. We have seen this in many of our 
wilderness or monument areas in California, Montana, and New Mexico--
and in other States where people can go and hide from law enforcement. 
They have created clandestine drug-growing areas in these Federal 
lands, posting criminals to protect their drug business from whoever 
comes their way. In my opinion, the ones who are benefitting the most 
from these areas we are protecting for our future generations are the 
transnational criminals who have learned to take advantage of the fact 
that these areas are remote, they are limited to vehicular traffic, and 
they are now at risk of becoming limited to local law enforcement that 
are sworn to protect it.
    I thank you for your time and welcome any questions.

    Mr. Duncan. Sheriff, thank you so much.
    I will now recognize Dr. Rosenblum. I will remind Members 
that votes have been called. There is about 8 minutes on the 
clock.
    So Dr. Rosenblum, we are going to take your testimony then 
we will recess. But you are recognized for 5 minutes.

     STATEMENT OF MARC R. ROSENBLUM, DEPUTY DIRECTOR, U.S. 
     IMMIGRATION POLICY PROGRAM, MIGRATION POLICY INSTITUTE

    Mr. Rosenblum. Thank you. Chairman Duncan, Ranking Member 
Barber, Members of the subcommittee, good afternoon. I am Marc 
Rosenblum, deputy director of the Immigration Policy Program at 
the Migration Policy Institute, an independent, nonpartisan 
think tank in Washington that analyzes U.S. and international 
migration trends and policies. Thank you for the opportunity to 
testify today.
    As you know, there is a bipartisan Congressional consensus 
in favor of creating an Organ Mountains-Desert Peaks National 
Monument, and President Obama recently created a monument there 
by Presidential proclamation.
    What is in dispute is how much land should be protected in 
this way. The President's proclamation matches legislation 
introduced by Senators Udall and Heinrich to protect 
approximately 500,000 acres, while a bill by Congressman Pearce 
to protect about 50,000 acres.
    A second set of questions concerns how CBP and other 
agencies may access the protected areas for law enforcement 
purposes. Under the President's proclamation, CBP access will 
continue to be governed by the existing Memorandum of 
Understanding between DHS and the Department of Interior.
    The President's proclamation also leaves in place about 
240,000 acres of existing wilderness study area within the 
monument. Under the Wilderness Act, this land enjoys stricter 
statutory protection than other Federal lands.
    The Senate bill would supplement the existing MOU by 
permitting CBP to conduct specified law enforcement activities 
within parts of the protected area, including wilderness areas 
near the border. The House bill would supplement the MOU by 
allowing any Federal, State, or local law enforcement personnel 
to conduct all types of law enforcement activities within its 
smaller monument. But the House bill does not address the 
border wilderness area.
    How large should the monument be? What type of access 
should law enforcement agencies have? The answer ultimately 
depends on how important it is to protect the environment and 
ensure sustainable public access to this region, and on the 
severity of border threats there.
    I am not an expert on the environmental and cultural 
attributes of this location. But one point I want to emphasize 
is that southern New Mexico is not characterized by 
particularly acute border threats. It doesn't look like 
Arizona.
    The Organ Mountains Monument falls in the middle of the 
Border Patrol's El Paso sector, which is generally a Border 
Patrol success story. The agency averages fewer than 12,000 
apprehensions per year in the entire El Paso sector. That is 
about 5 percent of the level observed during the early 1990s. I 
don't know if we can show that picture. But I have a figure 
that will show you that.
    A second consideration is that the existing MOUs between 
DHS and DOI are considered a good model for managing the 
diverse policy goals that exist on Federal border lands. 
Historically certain public lands were vulnerable to illegal 
border crossers because CBP had limited access to these areas, 
and DOI does not have a border security mission. The MOU 
requires that DOI and CBP develop management practices to give 
CBP access to DOI roads and trails, among other provisions.
    A 2011 GAO study that we have discussed today of border 
security on Federal lands concluded that the MOUs provide a 
successful framework for DOI and CBP to negotiate access rules. 
Most CBP station chiefs reported that Federal environmental 
laws had not affected border security in their areas of 
operation. This assessment has been echoed in previous CBP 
Congressional testimony.
    The monument size and access rules are questions that get 
at real tradeoffs between border security and other goals that 
we also care about at the border, such as protecting the 
environment, preserving historical and cultural landmarks and 
permitting public access and tourism. In general, many of the 
concrete actions that strengthen border security, such as 
installing fencing and other infrastructure, and conducting 
patrols, can conflict with other goals, such as environmental 
preservation and sustainable tourism.
    The solution to this tension is to incorporate workable 
policies into CBP's enforcement practices. Having National 
monuments and wilderness areas and restricting certain 
enforcement practices in ways that still permit law enforcement 
to carry out its mission are mechanisms to ensure that the 
competing priorities are part of the equation.
    In conclusion, CBP's own statements, as well as GAO 
findings suggest that CBP and DOI have worked together in other 
cases to strike an appropriate balance between border security 
and conservation. In light of the relatively low level of 
illegal traffic in the El Paso sector, existing MOUs should 
provide an appropriate framework for the agencies to secure the 
new Organ Mountains-Desert Peaks Monument, as well.
    Mr. Chairman, this concludes my testimony. I thank you for 
the opportunity and would be pleased to answer any questions.
    [The prepared statement of Mr. Rosenblum follows:]
                Prepared Statement of Marc R. Rosenblum
                             July 10, 2014
    Chairman Duncan, Ranking Member Barber, and Members of the 
subcommittee: Good afternoon. I am Marc Rosenblum, deputy director of 
the U.S. Immigration Policy Program at the Migration Policy Institute, 
an independent, non-partisan think tank in Washington that analyzes 
U.S. and international migration trends and policies. Thank you for the 
opportunity to testify today.
    As you know, there's broad, bipartisan Congressional consensus in 
favor of creating an Organ Mountains-Desert Peaks National monument, 
and President Obama recently exercised his authority to create a 
monument there by Presidential proclamation. What is in dispute is how 
much land should be protected in this way. Legislation introduced by 
Senators Udall and Heinrich (S. 1805) would protect approximately 
500,000 acres, while a bill by Congressman Pearce (H.R. 995) would 
protect an estimated 50,000 acres. The President's proclamation sets 
aside about 500,000 acres.
    A second set of questions concerns what type of access U.S. Customs 
and Border Protection (CBP) and other Federal, State, and local 
agencies should have to protected areas for law enforcement purposes. 
Historically, some border enforcement operations on certain Federal 
lands have been compromised because the Department of Interior (DOI) 
Bureau of Land Management (BLM) and other Federal land managers 
prioritize conservation and their own core missions over the Department 
of Homeland Security's (DHS) law enforcement goals. In an effort to 
remedy this, DHS and DOI, along with the U.S. Department of Agriculture 
(USDA), signed a series of Memoranda of Understanding (MOUs) between 
2006 and 2009 that established policies and procedures for inter-agency 
coordination on Federal lands.
    Under the proclamation issued by President Obama, CBP access to the 
new Organ Mountains-Desert Peaks National monument would be governed by 
these existing MOUs. The Senate bill would supplement the MOUs by 
explicitly permitting CBP to conduct certain specified law enforcement 
activities within parts of the protected area. The House bill would 
take the additional step of allowing any Federal, State, or local law 
enforcement personnel to have unfettered access to the entire monument 
for all types of law enforcement activities.
    The House and Senate bills and the Presidential proclamation also 
differ in terms of how they handle National wilderness areas located 
within the monument. In general, wilderness areas enjoy stricter 
environmental protection than other parts of the monument because 
wilderness areas are closed to motorized vehicles. The Senate bill 
would convert most of the existing Wilderness Study Area within the new 
monument into a permanent wilderness area, but would create special 
rules within a 5-mile strip of wilderness near the border to permit 
unfettered border security operations in that area. The House bill, in 
creating a smaller monument, does not address this border wilderness 
area, and the President is not permitted to do so by proclamation.
    How large should the monument be, and what type of access should 
CBP and other law enforcement agencies have to the protected areas?
    The answers to these questions depend on how preservation and 
public access to this area are valued, as well as how we assess the 
severity of border threats in this region.
    I'm not an expert on the environmental and cultural attributes of 
this location, but one point I want to emphasize in my testimony is 
that southern New Mexico is not characterized by particularly acute 
border threats. The Organ Mountains-Desert Peaks region falls in the 
middle of the Border Patrol's El Paso Sector, which is generally seen 
as a Border Patrol (USBP) success story. Between the early 1980s and 
the early 1990s, an average of more than 230,000 migrants per year were 
apprehended in the El Paso Sector. In 1994, Border Patrol Sector Chief 
Silvestre Reyes initiated Operation Blockade, moving a large number of 
agents and infrastructure up to the border line. Apprehensions fell by 
two-thirds that year, and entered a period of sustained declines over 
the next 2 decades after a brief increase in 1995-96. In the last 5 
years, the Border Patrol has averaged fewer than 12,000 apprehensions 
per year in the entire El Paso Sector, about 5 percent of the level 
observed during the 1980s and early 1990s (see Figure 1). 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Source: Migration Policy Institute (MPI) analysis of U.S. Border Patrol 
data, ``Illegal Alien Apprehensions, by Fiscal Year,'' www.cbp.gov/
newsroom/media-resources/stats.

    The El Paso Sector remains both heavily fortified and relatively 
safe, even as apprehensions have increased significantly in other Texas 
sectors in the past few years. For the last 3 years, El Paso has ranked 
2nd or 3rd among the nine Southwest Border sectors in terms of the 
number of Border Patrol Agents, while it has ranked 7th in terms of the 
number of people apprehended, 5th in number of people prosecuted for 
border criminal offenses and between 4th and 9th in drug seizures (see 
Table 1). While the Mexican city of Juaarez, right across the border 
from El Paso, has been one of the most dangerous cities in the world, 
its Texas neighbor is consistently ranked among the two or three safest 
large cities in the country.
    Focusing on the Organ Mountains area in particular, the scale of 
illegal activity is also held in check, to a degree by the region's 
remoteness and by its tough desert terrain. Thus, there is nothing 
about this section of the border that makes it stand out as 
particularly vulnerable to border threats.

                            TABLE 1.--EL PASO SECTOR PROFILE AND RANKINGS AMONG ALL NINE SOUTHWEST BORDER SECTORS, 2011-2013
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                        Marijuana              Cocaine
                                         USBP Agents    Rank   Apprehensions    Rank     (Pounds)     Rank     (Pounds)     Rank   Prosecutions    Rank
--------------------------------------------------------------------------------------------------------------------------------------------------------
2013...................................        2,631        3        11,154         7       66,940        4          215        4         8,503        5
2012...................................        2,718        3         9,678         7       39,933        6          206        7         7,086        5
2011...................................        2,738        2        10,345         7       43,667        8          116        9         6,906       5
--------------------------------------------------------------------------------------------------------------------------------------------------------
Source.--MPI analysis of U.S. Border Patrol data, ``Sector Profile, FY2011-FY2013,'' http://www.cbp.gov/newsroom/media-resources/stats.

    My second point is that the existing MOUs between DHS, DOI, and 
USDA appear to be a successful model for managing diverse policy goals 
on Federal border lands. Prior to developing the MOUs, certain public 
lands were particularly vulnerable to illegal border crossers because 
CBP had limited access to these areas and other Federal land managers 
do not have a border security mission. Before turning to the MOUs' 
effectiveness, let me explain that in general, they require that 
Federal land managers and CBP develop management practices to ensure 
that CBP has access to DOI and USDA roads and trails, as well as 
minimize the adverse impact of border infrastructure construction, 
encourage the sharing of information about law enforcement activities 
in border regions, and conduct certain joint training programs, among 
other provisions. In short, the goal of the MOUs is to ensure that land 
managers and CBP work together to balance conservation and border 
security on public lands.
    Turning now to the question of the effectiveness of the MOUs, a 
2011 Government Accountability Office (GAO) study of CBP access to 
Federal lands evaluated how the agreements have worked in practice. GAO 
reached the following conclusions:
  <bullet> In general, DHS, DOI, and USDA have used the National-level 
        MOU and established interagency liaison mechanisms to 
        successfully negotiate DHS access to Federal lands and the 
        installation of border infrastructure in several different 
        locations.\1\
---------------------------------------------------------------------------
    \1\ U.S. Government Accountability Office (GAO), Southwest Border: 
Border Patrol Operations on Federal Lands, GAO-11-573T (Washington, DC: 
GAO, 2011), 8, www.gao.gov/products/GAO-11-573T.
---------------------------------------------------------------------------
  <bullet> A majority of Border Patrol station chiefs (17 out of 26) 
        reported some type of delay or restriction in obtaining access 
        to certain Federal lands in their jurisdictions, but an even 
        larger majority (22 out of 26) reported that such delays had 
        not affected border security in their areas of operation.\2\
---------------------------------------------------------------------------
    \2\ Ibid., 9.
---------------------------------------------------------------------------
  <bullet> GAO found, in some cases, that when the Border Patrol faces 
        delays in adding infrastructure, such as fencing and other 
        tactical infrastructure, the agency can mitigate wait times by 
        assigning USBP resources to work directly with partner agencies 
        to expedite environmental reviews. USBP did not always dedicate 
        the resources to do so because many of the stations 
        experiencing delays were in remote border regions where CBP did 
        not perceive pressing border security threats.
  <bullet> Overall, scarce Border Patrol resources were seen as more 
        fundamental constraints on DHS's ability to secure the border 
        than were requirements imposed by Federal environmental and 
        other laws. Border Patrol station chiefs interviewed by GAO 
        reported that the most important factors influencing their 
        ability to secure Federal lands near the border were the number 
        of Border Patrol Agents and the availability of adequate 
        surveillance technology and tactical infrastructure. GAO 
        concluded that these investments in border security per se were 
        more important for controlling the border than were limitations 
        on DHS' access to Federal lands.\3\
---------------------------------------------------------------------------
    \3\ Ibid., 17.
---------------------------------------------------------------------------
    This assessment has been echoed in DHS Congressional testimony, as 
Border Patrol officials have told Congress that the existing MOU allows 
the Border Patrol to adequately carry out its border security 
mission.\4\
---------------------------------------------------------------------------
    \4\ Statement of U.S. Border Patrol Deputy Chief Ronald Vitiello 
before the House Committee on Oversight and Government Reform, 
Subcommittee on National Security, Homeland Defense and Foreign 
Operations, 112th Cong., 1st. sess., April 15, 2011, http://
naturalresources.house.gov/uploadedfiles/vitiellotestimony04.15.11.pdf. 
At the hearing, Deputy Chief Vitiello described in detail how U.S. 
Customs and Border Protection (CBP) collaborates with the Department of 
the Interior (DOI) and U.S. Department of Agriculture (USDA) to fulfill 
CBP's border enforcement responsibilities while respecting and 
enhancing the environment.
---------------------------------------------------------------------------
    Similarly, CBP has described the Organ Mountains-Desert Peaks 
monument designation as ``in no way limiting'' CBP's ability to perform 
its border security mission, and giving the agency ``important 
flexibility'' to do so.\5\
---------------------------------------------------------------------------
    \5\ Phil Taylor, ``National Monuments: DHS Says Organ Mountains 
Designation Won't Impede Border Security,'' E&E Publishing, May 21, 
2014, http://www.eenews.net/stories/1059999955/print.
---------------------------------------------------------------------------
    Finally, it's important to emphasize that the monument's size and 
access rules are questions that get at real trade-offs between border 
security and other goals that we as a Nation also care about at the 
border, such as protecting the environment, preserving historical and 
cultural landmarks, and permitting public access and tourism. In 
general, many of the concrete actions that strengthen border security--
such as installing fencing and other physical infrastructure and 
conducting high-profile patrols--can conflict with other goals, such as 
environmental preservation and sustainable tourism.
    In light of the fact that U.S. policy at the border must grapple 
with this more diverse set of concerns, the solution is to develop 
workable policies and tools that can be incorporated into the 
enforcement practices of CBP and other agencies. Creating a National 
monument and restricting certain enforcement practices within the 
monument--in ways that still permit law enforcement to carry out its 
missions--are mechanisms to ensure that these competing priorities are 
part of the equation.
    In conclusion, CBP's own statements as well as GAO findings suggest 
that CBP and BLM have worked together in other cases to strike an 
appropriate balance between border security and conservation--including 
in border sectors with higher levels of illegal activity. In light of 
the relatively low level of illegal traffic in the El Paso sector, 
existing MOUs between DHS and DOI should provide an appropriate 
framework for the agencies to secure the new Organ Mountains-Desert 
Peaks monument as well. Congress may wish to consider additional 
changes to existing wilderness areas, which could further strengthen 
law enforcement activities in the border region.
    Mr. Chairman, this concludes my testimony. I thank you for the 
opportunity to testify and would be pleased to answer any questions.

    Mr. Duncan. I thank you for that.
    Unfortunately votes were recently called on the House 
floor. So without objection the subcommittee will stand in 
recess subject to call of the Chairman. Subcommittee will 
reconvene approximately 10 minutes after the conclusion of the 
last vote.
    [Recess.]
    Mr. Duncan. Subcommittee on Oversight Management Efficiency 
will come to order. Thank you guys for bearing with us through 
votes. I know that was a long vote series. I will now recognize 
myself for 5 minutes.
    Let me first off say that I have in my lifetime enjoyed a 
lot of the wilderness areas and National parks. Just last week 
I was in Montana Glacier National Park, another area that is 
like a wilderness area near Terriot Pass on the Canadian 
border. So I understand the significance of setting aside some 
of this Federal land for future generations and protecting it 
against development and just conserve these wild and scenic 
places.
    But I noticed in Mr. Rosenblum's statement that 
historically some border enforcement operations on Federal 
lands have been compromised because of the Department of 
Interior and Bureau of Land Management and other Federal land 
managers prioritize conservation and their own core missions 
over the Department of Homeland Security's law enforcement 
goals.
    Now we have got a situation, as exemplified in Arizona, as 
we heard, where these wild and scenic places are being violated 
by smugglers and human traffickers and others that are coming 
through. Mr. Pearce showed on the screen a picture of piles of 
dirty diapers and refuge that has been dumped over and over and 
over.
    We have people from Arizona. I was talking with Mr. 
Schweikert from Arizona earlier and he said you know civic 
organizations would go down and they would work with CBP, who 
would actually be there with them, and they would police the 
area and they would clean up all the garbage through these 
canyons. When they were talking to the CBP officers they said 
this will last for about a week, last for about a week.
    Mr. Judd, have you or any of your agents that you represent 
ever encountered human or narcotic smuggling groups or any 
other group of illegal aliens that made an effort to protect 
the environment?
    Mr. Judd. No, sir.
    Mr. Duncan. Don't you think, and wouldn't you agree with me 
that the members of Customs and Border Protection, Border 
Patrol that are trying to do their job working within the 
jurisdiction of other agencies, don't you think they would do 
all in their power to make sure that these significant areas 
where there might be some sort of flora or fauna that is 
sensitive, wouldn't they try to make every effort to protect 
that?
    Mr. Judd. Yes, sir. In fact, we just had an agent out of 
Ojo that was issued an accommodation for finding pottery and 
not spoiling the area that was estimated to be a couple hundred 
years old. This just happened 2 weeks ago I believe. So yes, we 
take every effort to----
    Mr. Duncan. Drug cartels are going to take the path of 
least resistance if they are trying to evade and escape from 
law enforcement and get into this country and bring their wares 
in. Wouldn't you agree?
    Mr. Judd. Well, you just have to look at Arizona to see 
that that is what is happening.
    Mr. Duncan. So should the public expect to see an area like 
Organ Mountain and Desert Peaks, should they expect to see 
increased pollution as a result of Border Patrol's reduced 
presence?
    Mr. Judd. If you take out law enforcement from any area you 
can expect to see crime go up.
    Mr. Duncan. Let me ask you this. In the 2006 Memorandum of 
Understanding with the Department of Interior and Agriculture, 
all parties acknowledge that CBP operations and construction 
within the 60-foot Roosevelt Reservation of May 27, 1907. It is 
along the U.S.-Mexico border. And the 60-foot Taft Reservation 
of May 3, 1912, and that is along the U.S.-Canadian border, 60-
foot-wide strip.
    Is that consistent? It is consistent with the purpose of 
those reservations and that any CBP activity, including but not 
limited to operations in construction within the 60-foot 
reservation is outside the oversight and control of Federal 
land managers. That is a fact, okay. The Memorandum of 
Understanding states that.
    Let me ask you this: Is 60-foot enough to effectively 
ensure and secure the U.S.-Mexican border?
    Mr. Judd. Absolutely not.
    Mr. Duncan. Do you think that--well let me ask you this. 
What is wide enough? Is it a mile? Is it 5 miles? What sort of 
exclusion zone should we have along----
    Mr. Judd. Well, every area is different. But what you have 
to have is you have to have a series of roads that allows us to 
get ahead of the trafficking. Because again, if we are reduced 
to 60 feet, once they get past us then we are pushing from 
behind them. If we can't get ahead of them we don't even have 
the opportunity to arrest them. They are going to be what we 
call got-aways.
    Mr. Duncan. Right.
    I am going to get back to the National monument there, and 
ask Sheriff Garrison, which I appreciate your efforts. I 
appreciate you being willing to come here, sheriff.
    Shortly after the National monument designation by 
President Obama you were quoted by the Associated Press as 
saying ``We have no ability to patrol that area. Crime is going 
to increase. It will be akin to the Organ Pipe National 
Monument in Arizona. I wonder how many years it will be before 
we have to post signs that say `Enter at Your Own Risk'.''
    Those are your words. So can you explain the similarities 
between Organ Pipe in Arizona and the Organ Mountain in New 
Mexico and what we may or may not see?
    Sheriff Garrison. Thank you, sir. I think the only thing I 
can say is you know I have learned from my experience in seeing 
what has happened there in Organ Pipe because the way it is set 
up and because of its proximity to the border and everything 
else. I believe the same thing is going to happen in the 
Organ--in the new one that was just created.
    It is close to the border. It has the same kind of nexus to 
the border with the criminal activity going on the same. It is 
not as much as in Arizona, but I believe it will grow stronger 
and become more as time goes on.
    So speaking with some of the city council and county 
commissioners in my community, I told them the same thing. They 
said, well that is in Arizona, that is not here. I said, but it 
is the same thing.
    Mr. Duncan. You have been patrolling--you and your deputies 
have been patrolling this area for years before----
    Sheriff Garrison. Yes, sir.
    Mr. Duncan [continuing]. It had the Federal designation. 
You know the area. You know the routes that may be used. Do you 
feel like your efforts will be hampered by the closure of this 
to your entry?
    Sheriff Garrison. I do. I feel like the local law 
enforcement is the only law enforcement that has never been at 
the table in these conversations. I think Federal--the Border 
Patrol and other Federal agencies have been at the table 
whenever they discuss these things.
    My problem with that is--I don't have a problem with the 
Border Patrol. We work hand-in-hand with each other. We help 
each other out. We have backed up a number of Border Patrol and 
they come and help us out at times.
    But when a crime happens on this land, Border Patrol 
doesn't take care of that. That falls into the hands of the 
Sheriff's Office. If there is a murder or a dead body in the 
desert, we have to respond to that.
    So if we lose access to this land, I don't know how we are 
supposed to get out there to do it. I do believe that the 
patrols that we have been doing out there have curbed the 
criminal activity down some.
    There are always going to be those people who get through, 
hauling drugs or other people. But the fact that we are out 
there as much as we are, I believe that we have kept them 
pushed over into Arizona and into Texas.
    Mr. Duncan. Do you believe that this area will become--that 
the drug cartel recognize this open area where there is a void 
of law enforcement and it will become a corridor for human 
smuggling, drug trafficking, and illegal immigration issues 
through this corridor?
    Sheriff Garrison. Yes, sir, I do. You have right across the 
border is Juaarez, Mexico, and has been one of the most 
deadliest cities in the world for quite some time. With all the 
criminal activity and the cartel activity over there being one 
of the largest heroin producers, I believe that this corridor 
will open that up and it will get worse. Yes, sir.
    Mr. Duncan. Thank you. My time is up.
    I will yield to and recognize the Ranking Member, Mr. 
Barber.
    Mr. Barber. Well thank you, Mr. Chairman. Thank you all for 
your testimony. As I said in my remarks, I am really here today 
to get the facts about what the problems really would be or 
are. I appreciate what you have shared so far.
    I have a few questions. But first before I ask a question 
of you, Mr. Judd, I want to associate myself with your remarks 
about the Department of Homeland Security's budget. We can't 
afford to put any more burden on that budget with a budget that 
is cut back that is reducing over time for agents that is 
really struggling to get the job done.
    I fully agree with you that we shouldn't be using the 
Department's funds for environmental impact studies. There are 
other ways to do that.
    But I have a question for you, Mr. Judd, because as an 
agent you have been on the ground. You know what it is like day 
in and day out. A lot of people you know talk about the border 
but have never been there and you have been there. So have the 
men and women you represent.
    You talked about the MOUs, Memorandum of Understanding with 
the Department of Interior and Department of Agriculture. As a 
practical matter, how does it work? I mean if you--your agent--
you are part of a team. You are pursuing illegal activity, be 
it smuggling of humans or drugs. You see someone going into an 
area that is under the jurisdiction of these departments. How 
do you get access under this MOU? How difficult is it, given 
your experience?
    Mr. Judd. Theoretically we should have complete access to 
the lands without having to call and ask for permission. But 
what you have is you have a series of locks. If there are areas 
that are not accessible to the public, you have a series of 
locks.
    Those locks, if you don't set--because each agency will 
have their own lock for security purposes on these gates. If 
you don't lock it right you could lock some other agency out. 
Like I could lock the Sheriff's Department out if I placed the 
lock on there incorrectly.
    So it can be frustrating to try to get access to the land. 
But the major problem that we have is the number of roads that 
are provided to us in these areas. Again, we might have one. We 
might have two roads. We have always got one. But we might have 
two roads.
    If we don't have more roads to be able to interdict the 
smuggling that is taking place, they are going to get away. 
They are going to use these lands over and over.
    Buenos Aires, Organ Pipe. Buenos Aires was shut--down 3,500 
acres. The Federal Government shut 3,500 acres of taxpayer land 
down because it was too dangerous for citizens to go on that 
land.
    So it becomes very difficult when we add extra 
restrictions.
    Mr. Barber. With the MOUs in place do you as an agent, or 
if you are on the ground, do you have to call somebody? Or is 
it a given that you know what the rules of procedure are of 
getting onto the land, the locks notwithstanding?
    Mr. Judd. It is a given. It is a given. We already know the 
rules. The rules are given to us and we operate within those 
rules.
    Mr. Barber. Thank you. Again, thanks to your men and women 
for all that they do for us. I am a real fan.
    Sheriff Garrison, I also want to thank you for your service 
as a law enforcement leader in your community and for being 
here today. I wanted to go to a similar question I just asked 
Mr. Judd about access.
    Given that the monument is established and these MOUs are 
in place obviously for the Border Patrol and I would assume 
other Federal entities, are you a party to those MOUs? Do you 
have the same access or same ability to get on that the Border 
Patrol would have?
    Sheriff Garrison. Sir, at the current time we are not part 
of the MOUs.
    We utilize the roads that are there and the roads that go 
up and down through this area now. We have used them for a 
number of years.
    These roads have been around. I don't know. Some of them 
have been around 30, 40, 50, 60 years. I don't know that they 
are--how long ago they have been put out there or were out 
there. But the roads that we are using now are the ones that 
are currently in place.
    Having seen the maps that this monument would entail, I 
believe most of those roads would be shut down. The only road I 
know of that has east-to-west traffic is one road that I think 
Border Patrol would have access to with a locked gate.
    There is no north-to-south traffic, or no north-to-south 
roadways. We are talking areas that span 15, 20 miles in 
certain areas that you know if we have to get out there to some 
of these places I don't know how we would get out there.
    Mr. Barber. Before I run out of time I just want to ask Mr. 
Rosenblum to respond to that question.
    Is it your experience from what you know about how these 
lands are protected that roads would be shut down? Or what do 
you know about how these MOUs have actually worked as a 
practical matter?
    Mr. Rosenblum. Sure. So there is nothing in the 
President's--in the designation of the monument that would 
cause any of the roads to be shut down. What will happen now 
that the monument--so it is all already Department of Interior 
land that has been made into the monument. So it is already 
governed by the MOU.
    What will happen now that the monument has been created is 
that DOI will create a management plan. That is--I mean that is 
a public process that Border Patrol and local law enforcement 
are invited to participate in. So they will decide you know if 
they should change the roads.
    But the President's declaration and the MOUs both permit 
you know road construction for public safety purposes. So they 
will just sit down and make a plan about, well where do we need 
roads in light of our public safety needs and in light of our 
environmental concerns. So they will make a plan to 
specifically manage that monument.
    So there is nothing that we have seen so far, and nothing 
in the existing rules that would cause roads to be taken away, 
although that could be considered.
    Mr. Barber. Okay. Thank you, Mr. Rosenblum.
    I yield back. I have just run out of time.
    Mr. Duncan. I thank the Ranking Member.
    The Chairman will now recognize the other committee Member, 
Mr. O'Rourke, for 5 minutes.
    Mr. O'Rourke. Thank you, Mr. Chairman for holding this 
hearing and working to determine whether or what the 
implications for border security are here in this new National 
monument. I would also like to welcome Sheriff Garrison.
    You said you were born and raised in Donna Ana County. I 
was born and raised in the neighboring county of El Paso 
County. For those who don't know, Donna Ana, El Paso, and 
Juaarez all come together at a point right in between where the 
sheriff and I live, so good to see you up here.
    We welcome you to Washington, DC. I have appreciated 
hearing your testimony so far. I agree with you about the power 
and the flavor of the green chilies in Donna Ana County. They 
are just awesome.
    I guess my question for the sheriff and for Mr. Judd is 
what are you doing today, or what were you doing prior to the 
designation of this monument that you will not be able to do 
going forward, precisely, specifically? Maybe I will start with 
Mr. Judd and then we will take Sheriff Garrison.
    Mr. Judd. Prior--well, first off we don't know what the 
rules are concerning this land that was just designated by the 
President. So I really couldn't say what the difference is 
right now. Frankly I don't know that there will be any 
differences.
    All I want to let you know is we have to have access. If 
you want to designate the land, designate the land. Just give 
me the access that I can do my job.
    Mr. O'Rourke. Great.
    Mr. Judd. I want to be able to do my job.
    Mr. O'Rourke. Yes. Message received. I couldn't agree more 
with you.
    Sheriff.
    Sheriff Garrison. Yes, sir. I would say the same thing. I 
believe that it has been my experience whenever dealing with 
things like this that access is taken away, that we lose access 
to some of the roads that we have had access to.
    At one time, I think in 2006 or 2007 there was a 1-month 
stretch there where we took off 25 vehicles that were stolen 
out of this area that we are talking about that were used to 
haul drugs through that area. That was just 1 month. That is 
when we really started patrolling this area a lot more and 
since that time have really curbed that stuff down.
    I believe that if we lose access to that area to be able to 
do the patrols we do now, that the same thing will come back.
    Mr. O'Rourke. Dr. Rosenblum, is it your understanding that 
the land designated for the National monument is already, prior 
to its designation, Federal land, either BLM land or Department 
of Interior land?
    Mr. Rosenblum. That is correct. Yes.
    Mr. O'Rourke. So it is not like we are taking land and some 
other designation, local-owned land, or State-owned land, or 
private-owned land and converting it to Federally-owned land. 
We are going from Federal to Federal, staying within the 
Federal department.
    I have got to tell you, as I mentioned, I am from the area, 
very familiar with the places in question. In fact I was just 
there on Sunday. I hike in Dripping Springs Canyon on the Organ 
Mountains. I have been to the Portillo Mountains, to Mount 
Riley on the road to Columbus right along the border.
    I live there. Our family plays there. We hike there. We 
camp there. I have got to tell you the illusion was brought 
that we are somehow going to create a dangerous corridor. We 
are projecting fears based on things that might have happened 
in your district, Mr. Barber, that we might be afraid of from a 
distance.
    But I live on the border and I live in the safest city, not 
just on the border, not just in Texas, but in the United 
States, El Paso, Texas. Thanks to the men and women of the 
Border Patrol. Thanks to the men and women of local law 
enforcement. Frankly, thanks to the general population that 
lives there, that does a great job of keeping our communities 
safe.
    I don't, from my perspective, from living there, from being 
there----
    Mr. Duncan. And former mayor, right?
    Mr. O'Rourke. What is that?
    Mr. Duncan. And former mayor of El Paso.
    Mr. O'Rourke. I was on the city council.
    Mr. Duncan. Oh, okay.
    Mr. O'Rourke. Yes.
    Mr. Duncan. City council. I am sorry.
    Mr. O'Rourke. I will take the promotion, but--so I got to 
tell you. I definitely understand the concern.
    To the Chairman, that is our No. 1 job, is protecting the 
homeland and identifying these threats before they develop and 
affect the people that we represent. But I really don't see the 
problem here.
    I am certainly open to any different information than what 
has been presented today. But I don't think anything is going 
to change.
    But, Mr. Judd, if any agents within the Border Patrol, or 
Sheriff Garrison, if any of your deputies encounter locks 
through which you can't pass, roads that were open to you 
yesterday and are closed to you tomorrow, please let me know. I 
would love to be an advocate for law enforcement in that area 
to make sure that you have the same access yesterday--that you 
know you should have that today, going forward, and tomorrow.
    So thank you all for being here, for the testimony. I am a 
big supporter of this designation. I think it is great for the 
area, great for the country, and is not a danger to the 
homeland.
    So with that, Mr. Chairman, I yield back.
    Mr. Duncan. I thank the gentleman.
    The Chairman will now recognize Mr. Bishop, from Utah.
    Mr. Bishop. Thank you, Mr. Chairman. Being able--in my 
other job I am chairman of the Subcommittee on Public Lands and 
Environmental Regulations, Committee on Natural Resources. So 
this is all on public land. This is all normally--if it had not 
been done by an Antiquities Act designation, this would have 
gone through our committee and our subcommittee. So I 
appreciate that.
    Let me talk first to Sheriff Garrison. Mr. Judd pointed out 
that our access issues are not really based on need, not even 
the MOU. It is actually based on the personality of the land 
manager. We have seen examples where the land managers have 
either cut off access because they have quibbled about the 
definition, or waited months before they actually managed or 
actually allowed a movement or a change within it.
    So, Sheriff Garrison, I think in your answer to Mr. Barber 
you said that you don't have in local law enforcement any 
guarantee of access in the MOU.
    Sheriff Garrison. No, sir, we don't.
    Mr. Bishop. So I am assuming that if we are going to do 
something about this, and both the two Senate Democrats from 
New Mexico as well as Congressman Pearce over on our side, they 
both had an area they wanted to have designated for a buffer 
zone and an area for access. It would be essential then to 
allow State and local governments to have that same kind of 
access, but it would have to be put into statute I am assuming.
    Mr. Judd, you have seen how quickly and dramatically border 
traffic can shift. If you allow actually with inside this 
monument, or underneath the monument, which is a wilderness 
study area, which has the same problems as far as access. If 
you have less access for law enforcement, does that anticipate 
a change in activities?
    Mr. Judd. My main concern is simply that what is great 
about this is I can get on the phone and I can call a Border 
Patrol Agent right now and ask him: Hey, what is going on? In 
fact I did that right before--while we were on break.
    I asked an agent, I said: Hey, is it more difficult to 
arrest smugglers on the Organ Pipe as opposed to the public 
lands? The agent, who is one of the most senior agents at the 
Ojo station, he said it is a lot more difficult to arrest a 
smuggler on the National parks as what it is on the public land 
because there just isn't the same access.
    Mr. Bishop. It is a change of the designation of what you 
are allowed to do, especially if it is wilderness lands. That 
is the problem you have underneath this one that goes down to 
the border itself.
    So here is the difference. In the Senate language it didn't 
say--it allowed access for exigent circumstances. In the 
designation the President did it allowed access for 
emergencies. We haven't defined that. That is what is going to 
go in the land management process that will start from here on 
in, what it actually means by emergencies.
    But in the Pearce bill, what he wanted to provide is patrol 
access. How is patrol access different, Mr. Judd, than exigent 
circumstances or hot pursuit?
    Mr. Judd. Well patrol access allows us to ensure that the 
crimes don't take place. Exigent circumstances means that we 
are already responding to something bad that has happened.
    Mr. Bishop. All right. So I assume if we are going to 
rewrite something else to allow border security, patrol access 
really is a key element to allow that to stop issues from going 
forward.
    I have got 2 minutes. I am going to get this done very 
quickly. That will never happen.
    Sheriff Garrison, do you make the assumption that there 
would be community support for Mr. Pearce's approach to provide 
that buffer zone and that patrol access not only in the 
monument itself, but also in the WSA below the monument?
    Sheriff Garrison. To that, sir, I am not sure. I know there 
has been a lot of community support for it. Then I hear of 
other things against it. But I don't know who is from where 
anymore whenever it comes to that in the community.
    Mr. Bishop. Sheriff, I am going to give you a minute to 
tell me your experience as far as the public meeting that was 
held down there to get public input before this monument was 
designated. But I do want to say one thing to Mr. Rosenblum 
first.
    In your written statement you have made an inaccuracy. On 
Page 3--and you also said it orally as well--you wrote down 
that an even larger majority, 22 out of the 26 reported--
sectors reported that such delays had not affected border 
security in their areas of operation. You are misquoting the 
GAO report.
    On the first page it said 22 of the 26 agents in charge 
reported the overall security status of their jurisdiction was 
not affected. That means they were not downgraded. But 
unfortunately four of those who said their status was 
downgraded happen to be in this area we are talking about in 
New Mexico. That was one of those.
    They also went on to say 17 of the 26 said there were 
delays. Fourteen went on to say what those delays were. In this 
particular area of New Mexico they had an 8 month's delay in 
allowing the agency, the Border Patrol was trying to move a--
shoot. I am looking at my time here.
    They had an 8 month's delay in allowing the Border Patrol 
for moving a mobile surveillance device from one point to 
another. You had to bring in three different groups to access 
the road that you wanted to go in as far as the Border Patrol.
    In the footnote of that report it also said that even if 
BLM gives you that access, and they do all the ports by 
bringing in a reality specialist and a biology specialist, an 
archeological specialist. They don't always designate the 
entire road, only a section of the road where you will actually 
be. If you want to change that again you have to go through 
that entire process again.
    I didn't even give you your minute to tell me what happened 
to you down there in your public meeting. I apologize for going 
on. I am over time.
    Mr. Duncan. I will allow a little more leeway. I do want 
to--this is a fact-finding hearing. So----
    Mr. Bishop. I would never do that.
    Mr. Duncan. I appreciate Mr. Bishop yielding back. I 
appreciate him being on the committee. The reason we talked 
about this is he serves on Natural Resources Committee as well, 
and the National monument, National park, wilderness areas all 
fall under the jurisdiction of the Natural Resources Committee 
here.
    So we have worked on that a lot. I knew you would bring a 
lot of experience to this.
    So if you would reset the clock to 5 minutes and I am going 
to recognize Mr. Gosar. You can yield to Mr. Bishop.
    Mr. Bishop. Well maybe what I could ask is if you could 
tell Mr. Gosar what happened to you as you tried to attend the 
public hearing, the only public hearing they had. If you could 
keep it to a minute I would--he would be grateful.
    Sheriff Garrison. Yes, sir. Thank you.
    I received word from Senator Udall that they were going to 
have a public meeting in Las Cruces regarding this monument 
area, and that Secretary Jewell would be there. I also received 
an invitation to meet and greet with her before that time.
    I arrived 30 minutes early and the parking lot was so full 
that security was turning people out and wouldn't let anybody 
into the parking lot. There were a number of parking spots 
open, but we weren't allowed to go in there. They said those 
were for employees.
    I told them I was the sheriff and I had a meeting there, 
and I needed to talk to her. They said sorry, you can't come 
in. So I drove around until I found a spot, parked. Every 
business around there had signs up saying don't park here 
because they knew what was going to happen.
    I found a place, walked about 15 minutes to get back to the 
building. By the time I got there the meeting was over. Then 
was at the--met at the front door by security stating that I 
couldn't go into the general meeting that was being held. Not 
the meet-and-greet with Secretary Jewell, but the meeting that 
was going to be held, because it was already packed and that 
the fire marshal had already exceeded the limits for the room.
    I told him well I am going in anyways. I am the sheriff and 
I am going to go in.
    I left probably 150, 200 of the country residents in the 
parking lot who could not go in. It is my understanding I saw 
the busses where a lot of people who were bussed into this 
area, said to be residents, but I didn't recognize them. The 
residents I did recognize were out in the parking lot. So.
    Mr. Gosar. So from--taking a little bit further, so it is a 
sham.
    I mean you know when we start talking about wilderness 
designations it implies a whole different aspect. Doesn't it, 
Mr. Judd?
    Mr. Judd. It gives us different rules on how we have----
    Mr. Gosar. Well, I want to take those rules even further. 
Because I mean up around Flagstaff where I was from we had a 
wilderness area. We had a fire. You can't even go in with 
motorized vehicles without the pretense of getting permission.
    So there is no difference in Flagstaff versus this National 
monument. Would you agree?
    Mr. Judd. I would. In fact I would take it one step 
further. Again the senior agent that I talked to, we have been 
trying to put a mobile surveillance scope in the most pristine 
area on the Organ Pipe and we can't get permission. We have 
been trying to get permission for a long time.
    Mr. Gosar. It is over and over again. What we see is, is 
this pronouncement by Mr. Rosenblum about that we will work out 
these MOUs. But they never work out for the local people ever, 
ever, ever.
    There are these roadless remanagement plans. They have good 
intentions at the beginning. But all the sudden what they do is 
they restrict it over and over again.
    So we see this time and time again in regards to wilderness 
areas and Federal designations. I am getting tired of this 
aspect where they don't work with local people. Local 
jurisdictions like Congressmen and Senators from the State of 
jurisdiction. It is over and over again.
    That is why I want to make the comment, Mr. Chairman, 
because I am very happy that you brought this hearing because 
it brings to me that the President is overreaching his use of 
power granted to him by the Antiquities Act, plain and simple.
    The 1906 law was enacted mostly to protect prehistoric 
Indian ruins and artifacts, collectively termed antiquities, 
which were found on Federal lands in the west. By definition 
these sites were to be the smallest area compatible.
    Since given this power many presidents, Republicans, 
Democrats, have abused it. Today there are over 100 National 
monuments located in 26 States covering some 136 million acres. 
Due to its enormous size, many of these monuments fall outside, 
along the U.S.-Mexican border and become host to a range of 
illegal activities such as drug and human smuggling.
    I want to ask you, Mr. Rosenblum, are you very familiar 
with the corridors and what they look like by the trash heaps?
    Mr. Rosenblum. I am somewhat familiar with them.
    Mr. Gosar. You had better be very particularly. Is there 
trash there all the time? I mean you come here as a 
knowledgeable person here in regards to it. So I hope that you 
are a scholar about this. I mean there is lots of trash.
    Mr. Rosenblum. Yes, sir.
    Mr. Gosar. Is that very environmental?
    Mr. Rosenblum. I would just--I would----
    Mr. Gosar. I am asking a question, yes or no. Is that 
environmental?
    Mr. Rosenblum. Obviously the trash is not environmental. It 
is not----
    Mr. Gosar. Do the people putting the trash there, are they 
environmentally sensitive?
    Mr. Rosenblum. People who put trash in wilderness are not 
environmentally sensitive.
    Mr. Gosar. It seems like the corridor for these folks that 
are the illegal drug trafficking and human smugglers could care 
less about the corridors, do they?
    Mr. Rosenblum. I don't think there is any evidence that 
the----
    Mr. Gosar. Oh, wait a minute. Come on, sir.
    Mr. Rosenblum. I don't think there is any evidence----
    Mr. Gosar. If you would actually been in the corridor----
    Mr. Rosenblum [continuing]. That the environmental 
designations cause illegal migration. People illegally migrate 
through Arizona because there is travel infrastructure that 
they take advantage of. There are smuggling routes that have 
operated through that region after the last decade----
    Mr. Gosar. This just only hides it even worse.
    Mr. Rosenblum. I mean I think--I give some credit to 
environmental organizations that follow these issues. All of 
them that have endorsed this monument feel that on net this is 
going to protect those lands more than it is going to harm it. 
I don't think that the environmental groups that prioritize 
environmental protection would favor this designation if they 
anticipated it was going to cause additional environmental 
degradation.
    So I, you know I find that to be an implausible----
    Mr. Gosar. I find it is a very----
    Mr. Rosenblum [continuing]. That it is going to cause more 
traffic because traffic is driven by you know such a wide range 
of factors that smugglers take advantage of. The environmental 
designation, I mean we have got pretty good access to these 
areas.
    So--and I will give you, you know just to respond to Mr. 
Bishop on the southwest New Mexico thing that the GAO talks 
about. It is a perfect example where this system exists, the 
MOU for the Border Patrol and DOI to sit down and talk about 
it.
    In this particular case where there were delays, what the 
GAO reports is that the supervisory agent for the sector did 
not request additional access through that area for a road. 
What DOI said was that they would have been willing to work 
with Border Patrol to facilitate that access if requested.
    So you know the point is to put a process in place that you 
can do the law enforcement mission and build the roads where 
you need to build them.
    Mr. Gosar. It seems to be a one-way street over and over 
and over again. The environmental community and DOI, the 
Federal Government always knows better.
    I yield back.
    Mr. Duncan. The gentleman's time is expired.
    Chairman will now recognize Mr. Salmon from Arizona.
    Mr. Salmon. Well thank you.
    Congressman Schweikert, who was here when you initially 
made your testimony, asked that I share his experience. I guess 
he and his wife were called with a group of volunteers to go 
into the Arizona, the Organ--excuse me--what is it, Organ 
Mountain--yes, National Monument. They went to clean up a very 
terrible environmental situation where there was trash all over 
the place.
    He said that the dirty diapers were you know just--his 
exaggeration was a mile high. But he was saying that it was 
just very prolific throughout there. I guess my point is, and I 
would like to ask Mr. Judd and Mr. Garrison. Do you think that 
the Border Patrol folks would be better environmental stewards 
than the drug cartel people?
    Mr. Judd. I know they are. Not that they would be, they 
are.
    Mr. Salmon. Right. So, and Mr. Garrison, either one of you, 
would you believe that if you were allowed to do your job in 
those areas where--I mean the cartels aren't stupid, or the 
coyotes who traffic the humans. They are going to take the 
course of least resistance. If the law enforcement people are 
prohibited from doing their job in those areas, then the drug 
cartels take those over.
    It is like a balloon. You squeeze it, that balloon goes 
over in this direction. Isn't that correct?
    Mr. Judd. Well, I have only got experience. But I can tell 
you that there is more smuggling taking place on the Organ Pipe 
and Buenos Aires, which are Nationally-protected lands, than 
what is taking place on the public lands.
    Mr. Salmon. Well, if I was one of those drug cartel members 
it would be a no-brainer to me to take the place where you are 
forbidden to be. I guess my point I am trying to make is that 
if we really care about the environment--actually, we care 
about the environment and we care about protecting our borders.
    But if we really care about our environment we would 
actually want our law enforcement people there making sure that 
the ones that actually are damaging the environment with all 
the trash they are leaving behind and walking over all the--you 
know, the plant life there. Mr. Garrison, what are your 
thoughts?
    Sheriff Garrison. Sir, I agree with you, sir. We currently 
have an MOU in place with BLM to help them patrol those lands 
because they have one ranger for that entire area----
    Mr. Salmon. Right.
    Sheriff Garrison [continuing]. Who is often not around. We 
work that area as hard as we can for all those kinds of the 
same reasons he would be there.
    Mr. Salmon. But do you think that if--you know if the land 
we are talking about in New Mexico is given the same 
designation that you might have the same problems that they are 
having in Arizona?
    Sheriff Garrison. Yes, sir, I believe we would.
    Mr. Salmon. You believe you would?
    Sheriff Garrison. Yes, sir.
    Mr. Salmon. So it actually is going to be not only harmful 
to our border activities, but it is going to be harmful to the 
environment, isn't it?
    Sheriff Garrison. Yes, sir, I believe it will.
    Mr. Salmon. I guess that is a point that is getting lost on 
a few of us.
    I am going to yield back my time.
    Mr. Duncan. Gentleman yields back.
    We have got time, if the panel doesn't mind, to go through 
another series of questions because this is an important issue 
to me personally and I know to the other Members on the 
committee.
    So, let me just say this. I recognize myself for 5 minutes.
    I don't totally disagree with the comments of the gentleman 
from Texas earlier. This is a special place or it never would 
have been Federal land in the first place. It never would have 
been set aside as a National monument. I get that.
    As I said in my earlier statement, I appreciate these 
wilderness areas and these National parks and National 
monuments. I have enjoyed them, just recently even.
    But I do believe that past performance predicts future 
results. I don't think that is just a saying you hear on a 
stock performance commercial or whatever. I believe that to be 
the case.
    What I don't want to see is Organ Mountains-Desert Peaks 
National Monument area experience the same kind of abuse. That 
is the word that comes to mind that we have seen over in Organ 
Pipe in Arizona. The refuse you were talking about earlier the 
folks in Arizona have experienced, I don't want to see that 
happen at Organ Mountain.
    I want the O'Rourke's of the world to be able to continue 
to use that without run-ins and signs that say hey, you may 
encounter drug smugglers, illegal aliens, folks that don't 
speak English and other things, because the signs and the 
warnings are there.
    I can talk about the websites for the Fish and Wildlife 
Service National Refuges in Arizona. I can talk about the signs 
that are--and the warnings on the website for Organ Pipe. They 
are real realities for those areas. Americans are having to 
deal with that. I don't want them to have to deal with that 
necessarily in, or ever at Organ Mountain.
    So I hope we can facilitate ways, and that is the reason I 
think this hearing is so important, I hope we can facilitate 
ways for the CBP and local law enforcement to work with these 
Federal agencies to make sure that they can do their jobs. To 
protect this country from smuggling, protect this country from 
illegal immigration and to protect this country for any other 
illicit activity whether it is U.S. citizens conducting that 
activity on this Federal land or whether it is other foreign 
nationals coming across.
    You got to be able to do your job. I think that is 
important. I think that is why Mr. Bishop's legislation that I 
am reviewing may give us an avenue for that. I hope something 
good comes out of this that enables the CBP Officers to be able 
to do their jobs, but also protecting, Mr. Rosenblum, 
protecting those sensitive areas.
    I can tell you this. I don't believe that the smugglers and 
the cartel will necessarily protect those areas. They haven't. 
Past performance predicts future results.
    So let's find a way, a segue to make sure that we do 
protect these areas but also make sure that our country is 
protected as well, that our citizens are protected in these 
counties. That is why it is so important.
    I had another question but I am about out of time. So what 
I would like to do is just yield to the Ranking Member for 5 
minutes.
    Mr. Barber. Thank you, Mr. Chairman. Again, thanks to the 
witnesses and our colleagues for being here today.
    Mr. Chairman, I just received a document that I haven't had 
a chance to read other than the final statement on it. It is 
from the Donna Ana County Commission in New Mexico. It was 
dated July 10, which is today. It is a resolution adopted, it 
appears to be adopted unanimously by the commission, which I 
assume is the governing body for the county in question, which 
is supporting the designation of the monument. So without 
objection I would like to submit that for the record, Mr. 
Chairman.
    Mr. Duncan. Without objection so ordered.
    [The information follows:]
 Statement of Billy G. Garrett, Chairman, Donna Ana County Commission, 
                                   NM
                             July 10, 2014
    Chairman McCaul and Ranking Member Thompson, my name is Billy 
Garrett and I am the chairman of the Donna Ana County Commission in New 
Mexico. Donna Ana County was established in 1852, before New Mexico 
State-hood, and is the second-most populated county in the State with 
approximately 213,500 residents in 2013. We are also home to one of the 
fastest-growing communities in the United States, the city of Las 
Cruces. Our quality of life is characterized by a strong sense of 
community that is enhanced by a multicultural heritage and beautiful 
desert setting--portions of which are included in the Organ Mountains-
Desert Peaks National Monument. As the subcommittee examines the 
implications of the designation of this new monument, I appreciate the 
opportunity to provide information and a local perspective for your 
consideration.
    Donna Ana County has supported both legislative and executive 
protections for the areas now included in our Nation's newest monument. 
Residents have been studying and advocating for designation since the 
1970's, and strong local support has continued to build over the 
decades. Local governments such as Donna Ana County, the city of Las 
Cruces, the town of Mesilla, and even the city of El Paso, TX; tribal 
governments; and the All Pueblo Council of Governors have passed a 
series of unanimous resolutions in support of designation to maximize 
opportunities for the preservation of the natural, cultural, and 
historical resources entrusted to us as Americans; education and 
scientific inquiry about these resources; recreation; and economic 
development.
    While some of these resolutions have called on Congress to pass 
legislation to this effect, we have also passed a number of resolutions 
requesting that President Obama use the authority delegated to him by 
Congress in the Antiquities Act of 1906 to permanently protect the 
Organ Mountains-Desert Peaks. (Please see Donna Ana County's resolution 
below.) Donna Ana County has also written to President Obama and 
visited administration officials and staff in Washington, DC to provide 
information from the local point of view and to request Executive 
Action.
    In addition to understanding the high level of support of my 
constituents through their communications with me, recent polls show 
that strong, bipartisan majorities of both Donna Ana County residents 
(72-83%) and New Mexicans (82%) support National monument designation 
in the areas President Obama included in the establishing proclamation. 
In a poll conducted after designation, 75% supported the President's 
action.
    This past January, our community was pleased to host a visit from 
Secretary Jewell. Senators Udall and Heinrich held a public meeting 
while she was here to hear from constituents about the proposed 
National monument. More than 750 constituents attended the meeting. 
Congressman Pearce was invited to participate, along with a diverse set 
of stakeholders, and many views were represented in the form of both 
presentations and public comments. During that meeting, the public 
showed overwhelming support for the creation of a monument like the one 
established by President Obama. Veterans, local businesses, sportsmen, 
faith leaders, and culturally-based organizations have all embraced the 
idea of such a monument; many specifically requested that Executive 
Action be used to establish the monument. Editorial boards of our 
newspapers have also supported the Organ Mountains-Desert Peaks 
National Monument and the use of the Antiquities Act to create it.
    Everyone in Donna Ana County cares deeply about keeping our 
communities safe. After talking with and hearing from the Bureau of 
Land Management (BLM), Border Patrol, and local law enforcement 
officers, I am confident that the Organ Mountains-Desert Peaks National 
Monument will not impede law enforcement and border security 
operations. Nothing has changed with respect to Federal, State, or 
local law enforcement authorities, jurisdictions, responsibilities, or 
access since designation.
    Local law enforcement agencies continue to have the same 
jurisdiction over the types of activities in the monument that they 
handled before. They continue to have exactly the same access to the 
area to conduct routine patrols (via motor vehicle and other methods) 
and respond effectively during exigent circumstances as they did before 
designation. No prior notification to BLM is required to even drive or 
land aircraft off-road if necessary during an emergency, including for 
search-and-rescue and body recoveries. It would be highly unusual for 
road access to change in the management plan, and the proclamation also 
specifically allows for new roads to be constructed if needed for 
public safety.
    It is worth noting that while the monument designation as outlined 
in the proclamation does not hinder law enforcement activities, all 
entities will have multiple opportunities to share their precise 
concerns and needs to ensure that they are addressed in the monument 
management plan. Mitigation has also not been an issue here in Donna 
Ana County and the BLM policy on mitigation will not change with 
designation.
    If local law enforcement agencies feel clarification on management 
and continued cooperation is helpful, they are still welcome to pursue 
interagency agreements with the BLM. To my knowledge, the Donna Ana 
County Sheriff's Office has never felt the need for a formal agreement 
with the BLM, and has not pursued one post-designation. Our colleague 
to the west, Luna County Sheriff Raymond Cobos, has been confident and 
supportive of Organ Mountains-Desert Peaks designation, sharing the 
following thoughts with the press: ``After learning more about national 
monuments, I am satisfied that the President's action on 19 May 2014 
will not hamper the ability of the Luna County Sheriff's Department to 
enforce applicable New Mexico statutes within the area covered by the 
proclamation. I am comfortable with the manner in which local law 
enforcement jurisdiction and authority is preserved. I am always glad 
to see protection of our environment balanced by the safety of New 
Mexicans particularly in my jurisdiction.''
    In addition to the work of local law enforcement, the success of 
Federal law enforcement activities, especially that of the U.S. Border 
Patrol along our border with Mexico, is critical to our county. 
President Obama's proclamation honors the careful work done by the New 
Mexico delegation--first with our Border Patrol stations and sectors, 
and later with Customs and Border Protection (CBP) headquarters. The 
boundaries of the monument take into account the Border Patrol's 
operational planning and long-term strategies.
    The language of the proclamation also makes clear that the terms of 
the Memorandum of Understanding (MOU) between the Department of 
Homeland Security (DHS), Department of Interior, and Department of 
Agriculture Regarding Cooperative National Security and 
Counterterrorism Efforts on Federal Lands along the United States' 
borders are not changed in any way and still apply. This MOU 
specifically allows for work in and access to public lands, including 
those such as National monuments. While the MOU is signed by Federal 
agencies, the BLM has extended its provisions to all law enforcement 
entities, including non-Federal agencies such as Sheriff's offices and 
others. I have been assured that the MOU is working well in New Mexico, 
and that the Border Patrol is very comfortable with the establishment 
of the new monument.
    The Border Patrol has a long history of working well with the 
Bureau of Land Management in the area designated, and the El Paso 
Sector is used to working with the National Park Service in and around 
White Sands National Monument, which has existed since the 1930's. As 
well, sensors and other infrastructure can continue to be used and new 
infrastructure installed if necessary, although the areas cited by 
Border Patrol as critical for infrastructure flexibility and other key 
areas have been purposefully excluded from the monument. Secretary 
Jewell and BLM Director Neil Kornze also had the opportunity to tour 
some of these areas and those proposed for legislative designation with 
local Border Patrol Officers and field agents in January. They 
discussed the challenges on the border, access needs in the area, as 
well as ``the productive working relationship'' the BLM has with DHS 
and local law enforcement.
    For these reasons, CBP has officially supported efforts to 
designate the Organ Mountains-Desert Peaks since 2010, and the National 
monument specifically since January of this year as demonstrated by 
Acting Commissioner Winkowski's letter (below) and the administration's 
decision to move forward with establishment of the monument. After 
designation, CBP Spokeswoman Jenny Burke provided the following 
statement: ``This designation will in no way limit our ability to 
perform our important border security mission, and in fact provides 
important flexibility as we work to meet this on-going priority. CBP is 
committed to continuing to work closely with the Department of the 
Interior and the U.S. Forest Service to maintain border security while 
ensuring the protection of the environment along the border.'' As well, 
the Truman National Security Project; Ron Colburn, retired National 
Deputy Chief of the U.S. Border Patrol during the George W. Bush 
Administration; and 68 retired generals--including seven four-star 
generals--from the U.S. Armed Service (see below) have also been 
supportive and cite that security concerns have been adequately 
addressed.
    As a county commissioner, I value the ability for agencies, 
landowners, and managers, and stakeholders at all levels to work 
cooperatively to secure our border. The New Mexico Borderland 
Management Task Force, regularly attended by BLM, DHS, the Donna Ana 
County Sheriff's Office, and other local entities, has been very 
helpful in this regard. New Mexico's task force is one of the most 
successful in the Nation in fostering good relationships, 
communication, and collaboration. As well, the Border Security Task 
Force (BSTF) was convened in 2003 to facilitate agencies working 
together with the public to keep our border safe. This forum continues 
to address related issues--both small and large--to ensure that the 
missions of law enforcement are executed as effectively as possible 
while the needs of those living and working on the border are met. When 
the opportunity for open dialogue on the monument was offered at the 
BSTF meetings, the discussions have been generally positive or neutral. 
Discussion will also continue at these meetings.
    Finally, we can all agree that decisions should be made based on 
the facts of each situation and place. We need to pay attention to the 
special circumstances in each of our communities and landscapes rather 
than use sweeping ideology or one-size-fits-all approaches. Comparisons 
have been made between the Organ Mountains-Desert Peaks and other areas 
in other States. While we should certainly learn from experience 
elsewhere, the comparisons made here are neither constructive nor 
accurate. The El Paso Sector has more miles of border than the Tucson 
Sector, for example, and yet has had dramatically lower apprehensions 
than the Tucson Sector. The El Paso Sector has also had significantly 
greater rates of decrease in apprehensions and incidents than the 
Tucson Sector as more work has been done and resources provided to 
bring the border under control in the last decade or so.
    In the area specifically in and near the Organ Mountain-Desert 
Peaks, the lack of infrastructure (such as major roads heading north), 
rugged topography with strategically high ground on the U.S. side and 
features forming natural barriers to crossing, fence completion, and 
history of proactive border enforcement distinguish it from other areas 
and allow it to be a relatively quiet stretch of the border. The area 
closest to the border has also been a Wilderness Study Area since 1980, 
established by the Reagan administration and recommended for full 
wilderness designation by the George H.W. Bush administration. National 
Monument status does not change these factors, nor invite additional 
illegal activity.
    I would also ask subcommittee members to look at ``security'' in 
terms of the overall health of our communities. This is what county 
commissioners are tasked to do every day. Donna Ana County may lie on 
one side of an international boundary, but we share economic, social, 
cultural, and environmental interests with our Mexican counterparts. 
Those of us who live along the border are well aware of the benefits 
and potential threats of this relationship. We also share a common 
perspective that the border is not so much a line as it is a place of 
great vitality, significant challenges, and National importance. 
Building on this vitality, addressing the challenges, and recognizing 
the importance of this area is essential to regional well-being. In 
this sense, public safety cannot be separated from the social, 
economic, and physical conditions of our region.
    Development within the borderland ranges from large cities to small 
communities, widely-distributed homesteads, ranches, and other isolated 
facilities. Many of the families living in this region get by on 
incomes well below the poverty level. We live with the very real threat 
of flooding from summer thunderstorms, substandard housing, inadequate 
utilities, insufficient job opportunity, and rapidly deteriorating 
roads. A trip to the doctor or to shop for groceries or to participate 
in a parent-teacher conference can be a major challenge.
    The borderland is also an important center for international trade 
and regional business activity. To stay at the forefront of job 
creation and entrepreneurial initiatives, substantial investments are 
needed in education, utilities, and transportation systems. And it goes 
without saying that ports of entry must be sufficient is size, number, 
and staffing to safely and efficiently move materials, products, and 
people across the border--in both directions. Looked at in terms of 
distribution networks, trade through southern Donna Ana County can be 
linked to business interests throughout the United States.
    Tourism and related business development is also an important 
component of economic opportunity here. An independent economic impact 
study on the Organ Mountains-Desert Peaks National Monument estimates 
that Donna Ana County and the Paso del Norte region stand to earn more 
than $7.4 million in additional economic activity each year and 
$560,000 more in State and local tax revenues. The report also projects 
that jobs related to tourism and outdoor recreation will double based 
on increased spending at privately-owned hotels, restaurants, and 
retail establishments. These projections are consistent with the 
positive economic benefits already being realized in northern New 
Mexico in the first year following establishment of the Rio Grande del 
Norte National Monument. As we saw during the Government shutdown last 
October, National parks and monuments are important to local economies.
    Not only does Donna Ana County's new monument celebrate our 
borderland history and the unique enterprise of the United States that 
is our public lands, but I strongly believe that the monument will 
support the kinds of change described above that are essential to 
strengthening the borderland as a whole.
                                 ______
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 ______
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 ______
                                 
                                     June 18, 2014.
The Honorable Barack Obama,
The White House, 1600 Pennsylvania Avenue, NW Washington, DC 20500.
    Dear President Obama: We extend a sincere thank you and 
congratulations for the designation of the Organ Mountains-Desert Peaks 
National Monument on public lands in New Mexico.
    As you know, this region is filled with natural wonders and 
incredible hunting and recreational opportunities. Its protection will 
ensure that future generations will be able to enjoy diverse mountain 
ranges and expanses of Chihuahuan desert, a rich archaeological record, 
and numerous important historic sites, all while supporting new jobs 
and economic activity far into the future.
    From a veterans' perspective, we understand the importance of 
protected public lands as a place for men and women serving in our 
armed forces to recreate after returning from strenuous overseas 
missions to recuperate and reconnect with family and friends. Three 
significant military installations (Fort Bliss, Fort Huachuca, and 
White Sands Missile Range) and a large population of military personnel 
and retirees live within a 2-hour drive to the monument, and we are 
convinced the monument will directly contribute to the health and well-
being of these veterans and their families. And we are pleased that the 
new monument protects some of the Deming Bombing Targets, where World 
War II military history unfolded as bomber pilots and crew practiced 
using the Norden bombsight technology.
    We also appreciate that Interior Secretary Sally Jewell, U.S. 
Senators Tom Udall and Martin Heinrich, and others worked diligently to 
establish the monument in a manner that does not, in any way, hinder 
the ability of U.S. Customs and Border Protection to do their job of 
securing our Nation's borders.
    A vocal minority continues to make false claims that the 
designation of the new monument poses a threat to border security; to 
the contrary, we believe the designation of the new National monument 
has no bearing on our Nation's security. The portion of the Organ 
Mountains-Desert Peaks National Monument near the U.S.-Mexico border--
the Portillo Mountains--has not been a problem area for illegal border 
crossings, and will similarly not be one in the future. Highway 9, 
which runs just north of the border in this area, is paved, well-
maintained, and well-patrolled, enabling Border Patrol to react quickly 
to any incursions. In addition, this area is remote, dry, and wild 
country where covering large distances on foot is very difficult.
    Protecting this area as a National monument ensures that there is 
no encroachment of businesses, residences, or facilities in the area. 
It is our experience, minimizing human activity in any area makes the 
area easier to monitor and effectively keep secure.
    According to the Albuquerque Journal, the Santa Teresa station of 
Border Patrol's El Paso Sector apprehended only 13 illegal immigrants 
south of the Potrillo Mountains in fiscal year 2009. This was 0.1 
percent of the 14,999 total apprehensions in the El Paso Sector, which 
covers the entire State of New Mexico and the two western-most counties 
in Texas.
    We appreciate that your monument proclamation specifically 
addresses the issue by stating, ``Nothing in this proclamation shall be 
deemed to affect the provisions of the 2006 Memorandum of Understanding 
between the U.S. Department of Homeland Security, the U.S. Department 
of the Interior, and the U.S. Department of Agriculture regarding 
`Cooperative National Security and Counterterrorism Efforts on Federal 
Lands Along the United States' Borders.' ''
    Confirming this, a spokesperson for the U.S. Customs and Border 
Protection said: ``This designation will in no way limit our ability to 
perform our important border security mission, and in fact provides 
important flexibility as we work to meet this on-going priority.''
    Moreover, Sheriff Raymond Cobos of Luna County, New Mexico, home to 
some of the new monument lands near the border, has said: ``I am 
satisfied that the President's [monument proclamation] will not hamper 
the ability of the Luna County Sheriff's Department to enforce 
applicable New Mexico statutes within the area covered by the 
proclamation. I am comfortable with the manner in which local law 
enforcement jurisdiction and authority is preserved. I am always glad 
to see protection of our environment balanced by the safety of New 
Mexicans particularly in my jurisdiction.''
    Thank you for responding to local communities and the need to 
protect our shared heritage, and preserving the Organ Mountains-Desert 
Peaks National Monument. This designation will help our veterans 
recover from the impact of over a decade of continuous warfare, 
stimulate the local economy, preserve our history, and protect a 
beautiful part of our Nation--all while allowing Border Patrol to 
continue doing their job keeping these public lands among the most 
secure along the Southwest Border.
            Sincerely,

Gen. Charles Campbell,
Shreveport, LA, 40 years of service.

Gen. John Coburn,
Lorton, VA, 38 years of service.

Gen. Paul Kern,
Arlington, VA, 38 years of service.

Gen. Leon LaPorte,
San Antonio, TX, 37 years of service.
Gen. Lee Saloman
Gulfport, FL, 37 years of service.

Gen. Thomas Schwartz,
Spring Branch, TX, 38 years of service.

Gen. Johnnie Wilson,
Fort Belvoir, VA, 38 years of service.

Lieutenant Gen. Steven Arnold,
Huntsville, GA, 35 years of service.

Lieutenant Gen. Steven Boutelle,
Arlington, VA, 36 years of service.

Lieutenant Gen. John Caldwell,
Washington, DC, 36 years of service.

Lieutenant Gen. John Castelaw,
Washington, DC, 35 years of service.

Lieutenant Gen. Chris Christiansen,
Alexandria, VA, 35 years of service.

Lieutenant Gen. Daniel W. Christman,
Alexandria, VA, 38 years of service.

Lieutenant Gen. Robert Dail,
Reston, VA, 35 years of service.

Lieutenant Gen. Tony Jones,
Charleston, SC, 35 years of service.

Lieutenant Gen. William Lennox,
Alexandria, VA, 35 years of service.

Lieutenant Gen. Clarence ``Mac'' McKnight,
McLean, VA, 35 years of service.

Lieutenant Gen. William Mortensen,
Southport, NC, 35 years of service.

Lieutenant Gen. Richard Newton (USAF),
McLean, VA, 33 years of service.

Lieutenant Gen. David Ohle,
Fairfax, VA, 35 years of service.

Lieutenant Gen. Norman Seip,
McLean, VA, 35 years of service.

Lieutenant Gen. Stephen Speakes,
Cibolo, TX, 34 years of service.

Lieutenant Gen. Mitchell H. Stevenson,
Fairfax, VA, 35 years of service.

Lieutenant Gen. Theodore Stroup,
Arlington, VA, 35 years of service.

Lieutenant Gen. Guy Swan,
Arlington, VA, 35 years of service.

Lieutenant Gen. Ross C. Thompson,
Alexandria, VA, 35 years of service.

Lieutenant Gen. David Valcourt,
Potomac, MD, 35 years of service.

Lieutenant Gen. David Weisman,
Fort Lee, VA, 35 years of service.

Major Gen. Vincent Boles,
Huntsville, GA, 34 years of service.

Major Gen. Guy Bourne,
Arlington, VA, 33 years of service.

Major Gen. James Chambers,
San Antonio, TX, 32 years of service.

Major Gen. John Deyermond,
Pelham, NH, 32 years of service.

Major Gen. Jannette Edmunds,
Alexandria, VA, 33 years of service.

Major Gen. William N. Farmen,
Fairfax, VA, 34 years of service.

Major Gen. Yves Fontaine,
Rock Island, IL, 33 years of service.

Major Gen. Jerry Harrison,
Manassas, VA, 33 years of service.

Major Gen. Duane Jones (USAF),
Denver, CO, 32 years of service.

Major Gen. Thomas Kane (USAF),
Purchase, NY, 34 years of service.

Major Gen. Michael Lally,
Bothell, WA, 33 years of service.

Major Gen. Kevin Leonard,
Greenville, SC, 33 years of service.

Major Gen. Larry Lust,
Olathe, KS, 33 years of service.

Major Gen. John MacDonald,
Arlington, VA, 34 years of service.

Major Gen. Timothy McHale,
Alexandria, VA, 34 years of service.

Major Gen. John McMahon,
Seoul, South Korea, 32 years of service.

Major Gen. Hamp McManus,
Fort Mill, SC, 32 years of service.

Major Gen. Nordie Norwood (USAF),
Alexandria, VA, 33 years of service.

Major Gen. Robert Radin,
Charleston, SC, 34 years of service.

Major Gen. James Rogers,
Huntsville, GA, 32 years of service.

Major Gen. Bruce C. Scott,
Alexandria, VA, 33 years of service.

Major Gen. Randy Strong,
Washington, DC, 33 years of service.

Major Gen. Keith Thurgood,
Washington, DC, 32 years of service.

Brigadier Gen. Steven M. Anderson,
Arlington, VA, 31 years of service.

Brigadier Gen. Stephen C. Cheney,
Washington, DC, 33 years of service.

Brigadier Gen. Thomas Dickinson,
Atlanta, GA, 30 years of service.

Brigadier Gen. Barbara Doornink,
Alexandria, VA, 30 years of service.

Brigadier Gen. Robert Floyd,
Fairfax, VA, 32 years of service.

Brigadier Gen. William Forrester,
Huntsville, GA, 31 years of service.

Brigadier Gen. Uri French,
Fairfax, VA, 30 years of service.

Brigadier Gen. Rebecca Halstead,
Charlottesville, VA, 30 years of service.

Brigadier Gen. Jeffrey Horne,
Alexandria, VA, 32 years of service.

Brigadier Gen. Michael Kelleher,
Atlanta, GA, 30 years of service.

Brigadier Gen. Thomas Landwermeyer,
Clifton, VA, 33 years of service.

Brigadier Gen. Ann McDonald,
Arlington, VA, 29 years of service.

Brigadier Gen. David Reist (USMC),
Alexandria, VA, 31 years of service.

Brigadier Gen. Guy Sands,
Alexandria, VA, 32 years of service.

Brigadier Gen. Douglas Satterfield,
Washington, DC, 31 years of service.

Brigadier Gen. E.J. Sinclair,
Huntsville, GA, 32 years of service.

Brigadier Gen. Paul Wentz,
Dallas, TX, 32 years of service.

    Mr. Barber. Here is my take on this. Border security 
priority No. 1 with me. It has to be because the people I 
represent still don't feel safe on their land. Anything that we 
do to impair the ability of Border Patrol to do their job is 
not okay with me.
    That said, I hope that protecting the environment and 
protecting our homeland are not mutually exclusive. It doesn't 
have to be, I believe, an either-or situation. The challenges 
may be difficult for us to work out, but I hope we can.
    Priority No. 1 is border security. Border Patrol needs to 
have access. Local law enforcement needs to have access to 
chase the bad guys and to capture the bad guys.
    I hope that when all is said and done that we will find a 
way for you to be able to do your job and your members' job, 
Mr. Judd and Sheriff Garrison the same for you and your deputy 
sheriff associates. So while we have I think it appears, have 
had some difficulties and challenges with implementing these 
MOUs, we need to find a way to resolve them.
    I want to associate myself with Mr. O'Rourke when he says 
that you know if you see a challenge where people are stopping 
you or delaying you from getting onto these lands, we need to 
know about it. Because I will fight tooth and nail to make sure 
you get what you need, because border security is very 
important to me and to the people I represent and to the 
homeland.
    With that, I yield back. Thank you, Mr. Chairman.
    Mr. Duncan. All right. Thank the Ranking Member.
    The Chairman will recognize Mr. O'Rourke for 5 minutes.
    Mr. O'Rourke. Thank you, Mr. Chairman. I want to follow up 
on the spirit of the hearing, as you stated, to find the facts 
and make sure that we understand the situation.
    For Mr. Judd, the El Paso sector within which is this new 
National monument. Tell us how big that sector is, from where 
to where east to west.
    Mr. Judd. Wow. That is a very large sector. We are talking 
all of New Mexico extending into Texas going all the way over 
to the Big Bend area. It is a huge sector.
    Mr. O'Rourke. How many miles if you had to guess----
    Mr. Judd. I----
    Mr. O'Rourke [continuing]. From point to point?
    Mr. Judd. Honestly, I really couldn't guess. But I will 
tell you. I believe land-wise I believe it is the biggest 
sector and it is the biggest sector by a large margin on the 
Southwest Border.
    Mr. O'Rourke. Yes. I also understand and believe it is the 
largest sector in El Paso, along with Ciudad Juaarez on the 
other side, it was mentioned earlier by the sheriff, form the 
largest binational community. If you take Donna Ana County and 
you take El Paso County and you take Ciudad Juaarez we are 
talking about 3 million people there; 22 million legitimate, 
legal, proper documents crossings at the El Paso ports of entry 
every year.
    From 2008 to 2013 there were fewer than 12,000 
apprehensions per year in that entire sector, which we have 
agreed is the largest sector with the largest population base 
next to one of the largest cities in Mexico. We heard this from 
one of our experts earlier that by way of contrast, in the 
early 1980s to early 1990s we saw somewhere around 230,000 
apprehensions per year.
    So it is safe, I think relative to other parts of the 
border. It is safe relative to where it was 20 or 30 years ago. 
It is safe relative to Washington, DC, to South Carolina, to 
Arizona. Pick a point in this country. El Paso and the El Paso 
sector are the safest part of the country.
    I am sorry that you have constituents who don't feel 
comfortable leaving their kids at home. Hopefully their kids 
are at an age where they--you know it is okay to leave them at 
home. But you know El Paso is a place where you can do that.
    So I want to make sure, because we have been the recipient 
of so much bad public policy based on bad information and 
misplaced fears and anxiety, sometimes purposefully, sometimes 
unwittingly stoked from Washington, DC, when really the truth 
and the facts should prevail and determine what we do.
    The facts as I understand them are El Paso and the El Paso 
sector in Donna Ana, thanks to the great sheriff we have there, 
are among the safest places in the country. We have record low 
apprehensions in that area.
    We are not taking down any Border Patrol or law enforcement 
facilities that are on this land. We are not transferring this 
land from local, county, or State control to Federal control. 
It is going from Federal to Federal.
    Access, which I have heard from the sheriff and Mr. Judd, 
are the biggest issues. As far as I can tell there is no change 
in the access today.
    So this ridiculous proposition that we are somehow going to 
take this land away from Border Patrol access and give it to 
cartel access is just completely false and ridiculous. There is 
absolutely no truth to it.
    Let me read this. This comes directly from CBP's 
commissioner, January of this year. ``Throughout the entire 
buffer zone CBP can operate motor vehicles, build 
infrastructure--build new infrastructure, and carry out other 
activities as it would on any non-wilderness Bureau of Land 
Management Land.''
    Furthermore, the southernmost tip of the monument that we 
are talking about today is 50 miles away from this very safe 
border relative to other parts of the border.
    So again, I appreciate the legitimate concern about 
protecting the homeland. I want to make sure that we operate 
with the facts. When we don't we get things like SBI where we 
spend a billion-plus dollars on a solution that doesn't work to 
patrol a part of the border that we do. The Arizona High Tech 
Border Initiative with these fixed towers, hundreds of millions 
of more wasted.
    When we should be supporting the men and women of the 
Border Patrol and law enforcement and allowing them access, 
which we are going to do, and making sure that we make the best 
evidence and fact-based decisions. Based on the facts that we 
have today, we do not have a problem.
    Should we have one, Mr. Judd and Sheriff Garrison, as my 
colleague has said here, come to us. We will be your strongest 
and most forceful advocates to ensure that any access that has 
been denied is reopened. But I do not see a problem based on 
the evidence today.
    With that, I yield back. Thank you.
    Mr. Duncan. I thank the gentleman. Gentleman yields back.
    I recognize Mr. Bishop for 5 minutes.
    Mr. Bishop. Thank you.
    Let me just ask two questions of Mr. Judd and then show a 
map and give the quotes from the retired sector chief that is 
down there who is now teaching, and then go through what I 
think is the basis of the issue.
    So first of all, Mr. Judd, I was at a meeting--panel with a 
member of the Center for Biological Diversity, University of 
Arizona, who said that we should not allow greater access to 
the Border Patrol because the Border Patrol would devastate 
this special land. How would you react to that?
    Mr. Judd. It is upsetting.
    Mr. Bishop. That is a good-enough word.
    Let me do a second one. I should never ask a question 
without knowing the answer, but I am going to do it this time. 
If a Border Patrol Agent complains about the land manager, what 
impact does that have on the future and the career of the 
Border Patrol Agent?
    Mr. Judd. It depends--the level of the agent. I have seen 
some very, very good managers. In fact I am currently fighting 
to keep the job of a very good manager that when they voice 
their opinion they lose their job.
    I am very concerned any time that I am testifying in a 
hearing with a high-level manager because they can only say 
what the administration wants them to say, whether that is a 
Republican administration, whether that is a Democratic 
administration. They have to stick to the line that the 
administration wants them to say.
    Mr. Bishop. That is an overriding problem that we have had 
in--unless you talk to people who are retired or sometimes the 
union.
    I think the map here says something significant as we are 
talking about what Border Patrol can and cannot do. The red is 
public lands. The white is private property.
    So when we are talking about Texas, you don't have a whole 
lot of public lands there that are making a difference here. In 
New Mexico it is almost all public land. It is not just the 
monument that will be created. There is also a wilderness study 
area underneath that monument that has the same restrictions as 
the monument will have.
    Once again, the monument has to be reorganized. The bottom 
line is the issue of what we are going to do with those public 
lands.
    Let me give a quote from the retired sector chief that was 
there when he said, ``This leads me to believe there is nothing 
in the MOU that guarantees anything to the Border Patrol.''
    ``We need to learn from our previous mistakes of 
designating protected land anywhere near the border. Those 
protected lands just become a conduit for transnational 
criminal organizations every time and in every place.''
    ``Only a person who does not care about the border security 
would even consider designating or expanding a protected area 
near the international border,'' which was seen in the Pearce 
bill, which provided a patrol access buffer. It was seen in the 
Senate bill where both Senators provided a patrol access border 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7e1f0c1b1f503e">[email&#160;protected]</a>
    It was not done in the President's declaration. Therein 
lies the potential problem. The President did not do that. Had 
the President actually gone through the NEPA process, as we 
talked about before, in which he invited public comment, these 
are the kinds of comments that should have been taken and 
should have been part of that particular declaration.
    So what is necessary in this area to ensure future 
viability is: No. 1, there needs to be patrol access. Not just 
emergency, exigent circumstances, but patrol access. It needs 
to be for the Border Patrol and for local government.
    The Senate Democrats had that concern. They recognized it. 
The President did not. That becomes the significant aspect that 
needs to as we go forward.
    If you are going to make sure that this area is going to be 
protected in the future, you need that kind of designation, and 
you need it to be done legislatively, because right now it is 
done by an MOU that has been in place for what, 12, 8 years 
now? There are documents after documents, including a GAO 
report which shows all the problems that have taken place with 
the conflicts between that.
    Homeland Security, I am sorry, is at a disadvantage in this 
MOU. The MOU should definitely be redone and redone 
significantly. There is I think abundant evidence to illustrate 
that.
    I am rambling on again here. I apologize for that. But I 
stayed under the 2 minutes. I am done. I yield back.
    Mr. Duncan. I thank the gentleman.
    Mr. Salmon is recognized for 5 minutes.
    Mr. Salmon. Well thank you. Actually I just--I believe I 
would like to make a couple points.
    First of all, I think that our job as overseers of public 
policy is to make sure that we at least provide a mechanism to 
make sure that we do get it right. I don't like the idea of 
waiting until we have a crisis to come back and try to fix the 
problem.
    I think that the gentleman from Utah has made some very, 
very important and cogent comments about our role. Our role is 
not to leave it to chance. Our role isn't to, you know, pass 
the buck onto somebody else. Our role is to try to get it 
right.
    We represent the people. We are the people's House. We have 
seen in the Arizona, comparable to the New Mexico National 
designated lands, that we have had some severe problems with 
trash and with things that have screwed up the environment. I 
think it is just prudent for us to make sure that we have a 
mechanism to provide our law enforcement the ability to do 
their jobs.
    I think that is being good stewards of the environment. I 
think it is also being good stewards of our border. So I would 
just like to echo the comments made by the gentleman from Utah. 
I think that is a very modest proposal. I think it is 
reasonable. I would encourage the Obama administration to take 
those things to heart.
    I yield back.
    Mr. Duncan. I thank the gentleman.
    I want to thank the witnesses for their valuable testimony 
and the Members for their questions. The Members of the 
subcommittee may have some additional questions for the 
witnesses, and we ask you to respond to these in writing.
    I hope you are right, Mr. O'Rourke. I would love to see the 
El Paso best practices put in place in Brownsville and in 
McAllen and elsewhere, areas that aren't as safe as El Paso. If 
it works in El Paso, let's make it work other places.
    I hope that Organ Mountain doesn't follow the Organ Pipe 
National Monument example. So we are going to continue to 
oversight. I think that is the responsible act of Congress and 
I think that is why this hearing was so important for us today.
    I want to thank the other Members of Congress for 
participating, because I know it is a vested concern for the 
folks in Arizona, and the gentleman that understands National 
parks and National monuments has a vested concern for the 
Nation.
    So that will conclude this subcommittee hearing. Without 
objection the subcommittee will stand adjourned.
    [Whereupon, at 4:56 p.m., the subcommittee was adjourned.]


                           A P P E N D I X  I

                              ----------                              

    Statement of John Cornell on Behalf of the New Mexico Wildlife 
                               Federation
                             July 10, 2014
    Chairman McCaul and Ranking Member Thompson, my name is John 
Cornell and I am a sportsman organizer for the New Mexico Wildlife 
Federation. I am submitting this statement for today's hearing on 
behalf of the 19,000 New Mexico sportsmen and sportswomen we represent.
    The New Mexico Wildlife Federation was established in 1914 by Aldo 
Leopold and other conservation-minded sportsmen concerned about the 
future of hunting and fishing in our State. Our organization helped 
rebuild decimated populations of elk, antelope, bighorn sheep, and wild 
turkeys. We convinced our State Legislature to create a professional, 
apolitical Department of Game and Fish to manage our wildlife. We 
helped establish the world's first wilderness area, the Gila 
Wilderness. Over the course of a century we have remained true to our 
roots, working to protect New Mexico's wildlife, habitat, and our 
hunting and fishing traditions.
    Sportsmen in southern New Mexico have been involved in discussions 
about protecting crucial hunting areas around Las Cruces for more than 
20 years. In the early 1980s, the Bureau of Land Management identified 
wilderness study areas in the region including the Potrillo Mountains, 
Robledo Mountains, Organ Mountains, and Sierra de Las Uvas. Many of our 
members who grew up in Las Cruces learned to hunt in these areas and 
knew them inside and out, including where they were likely to find 
dove, quail, mule deer, javelina, and the occasional pronghorn 
antelope.
    Most hunters embraced the idea of permanently protecting these 
areas to ensure that future generations could hunt, hike, and camp on 
public lands close to Las Cruces, which today is New Mexico's second-
largest city. We did have concerns about access to some of the areas, 
but after working with the offices of then-Senators Pete Domenici and 
Jeff Bingaman the wilderness proposal was amended to our satisfaction.
    After many years of trying unsuccessfully to get wilderness 
designation for these areas through Congress, sportsmen agreed to push 
instead for a National monument. We helped shape the monument proposal, 
as well, working with other stakeholders to craft a plan that had wide-
spread support in our community. We supported the National monument 
legislation introduced by Sens. Tom Udall and Martin Heinrich, and 
applauded the decision by President Obama to use his Executive 
authority to designate Organ Mountains-Desert Peaks National Monument 
in May.
    Border security is not our field of expertise, but after attending 
more than 20 years of meetings about all aspects of the wilderness and 
monument proposals, sportsmen have not yet heard anything that 
convinces us border security will be compromised by designation of 
Organ Mountains-Desert Peaks National Monument. Claims have been raised 
about how the monument could limit access by law enforcement agents and 
increase illegal activity, but after listening to both sides in the 
discussion we believe those concerns have been fully answered by the 
U.S. Customs and Border Patrol.
    Furthermore, those of us who actually drive these roads and hike 
the hills and valleys know how tough the monument area is and what kind 
of activity occurs there. We spend more time in that country than any 
other group and know from decades of experience that illegal border 
activity is not an issue. Unlike some portions of the U.S.-Mexico 
border, sportsmen around Las Cruces have no fear about camping, hiking, 
and hunting in the areas that are now part of Organ Mountains-Desert 
Peaks National Monument. When representatives of the U.S. Customs and 
Border Patrol say the agency can protect the integrity of our border, 
we believe them.
    In summation, sportsmen in southern New Mexico strongly support 
designation of the Organ Mountains-Desert Peaks National Monument 
because it will protect areas that we have hunted in for generations. 
We do not have any concerns about border security.
                                 ______
                                 
                Letter Submitted By Honorable Ron Barber
                                     July 10, 2014.
The Honorable Jeff Duncan,
Chair, House Homeland Security Subcommittee on Oversight and Management 
        Efficiency, H2-176 Ford House Office Building, Washington, DC 
        20515.
The Honorable Ron Barber,
Ranking Member, House Homeland Security Subcommittee on Oversight and 
        Management Efficiency, United States House of Representatives, 
        Washington, DC 20215.
    Dear Chairman Duncan and Ranking Member Barber: The Wilderness 
Society, on behalf of our over 500,000 members and supporters from 
across the country, would like to submit the following testimony to be 
entered into the record for the July 10, 2014, hearing entitled ``The 
Executive Proclamation Designating the Organ Mountains-Desert Peaks a 
National Monument: Implications for Border Security.''
    The Wilderness Society supports the protection of the Organ 
Mountains-Desert Peaks and President Obama's proclamation protecting 
the area as a national monument. The President's proclamation came as a 
direct response to requests from the local community to protect the 
area as a national monument as part of over a decade of local input.
    The decision to protect the Organ Mountains-Desert Peaks area as a 
national monument was not arrived to in haste and has been thoroughly 
vetted by the local community. The effort to officially protect this 
stunning landscape began with former Senator Jeff Bingaman almost a 
decade ago and was continued by Sens. Tom Udall and Martin Heinrich. 
During the process of crafting the legislation, the community was 
substantially involved and key stakeholders--including law enforcement 
and border experts--were consulted and offered opportunities to provide 
input. The local community strongly supported the Senators efforts to 
protect the area as a national monument, with polling consistently 
showing almost 3 out of 4 local residents supportive of the proposal. 
Protecting the area as a national monument has also been endorsed by 
over 200 local businesses as well as numerous local governments 
including the Donna Ana County Commission, and the city and town 
councils of Las Cruces, El Paso, and Mesilla.
    The President's proclamation creating the Organ Mountains-Desert 
Peaks National Monument was created based on this widely supported and 
locally-driven legislation. Polling conducted following the President's 
proclamation showed that New Mexico residents continue to support 
protecting the area, with 75% of residents supportive of the 
President's action.
    I was involved with the effort to protect this area for several 
years and personally grew up hiking and exploring these public lands, 
and this new monument status preserves the outdoor heritage of the area 
and ensures continued access for hunting, grazing, and outdoor 
recreation. I personally witnessed the substantial public involvement 
that went into creating the Organ Mountains-Desert Peaks National 
Monument, a decision that will boost southern New Mexico's economy and 
protect our culture and way of life for generations to come.
    While The Wilderness Society is not an expert on border security, 
we can defer to those who are. U.S. Customs and Border Protection--the 
agency responsible for patrolling and securing our border--sent a 
letter to Senator Heinrich thanking him for his border security efforts 
in the legislation and stating ``the provisions of this bill would 
significant enhance the flexibility of U.S. Customs and Border 
Protection to operate in this border area''. Following the President's 
proclamation U.S. Customs and Border Protection reiterated their 
position by issuing a statement saying that ``this designation will in 
no way limit our ability to perform our important border security 
mission, and in fact provides important flexibility as we work to meet 
this on-going priority . . . CBP is committed to continuing to work 
closely with the Department of the Interior and the U.S. Forest Service 
to maintain border security while ensuring the protection of the 
environment along the border.''
    Additionally, the monument proclamation signed by President Obama 
clearly states, ``Nothing in this proclamation shall be deemed to 
affect the provisions of the 2006 Memorandum of Understanding between 
the U.S. Department of Homeland Security, the U.S. Department of the 
Interior, and the U.S. Department of Agriculture regarding `Cooperative 
National Security and Counterterrorism Efforts on Federal Lands along 
the United States' Borders'.''
    Local law enforcement officials such as Sheriff Raymond Cobos of 
Luna County, New Mexico, have already stated publicly that the Organ 
Mountains-Desert Peaks National Monument will not create security 
issues or hinder law enforcement personnel from doing their jobs. 
Third-party groups with national security expertise have also weighed 
in to support the national monument including the Vet Voice Foundation 
and Truman National Security Project. Additionally, on June 18th a 
letter praising the designation and refuting these false border 
security attacks was sent the President on behalf of 70 retired 
generals from various military branches.
    There is not currently an issue in this area with illegal 
immigration and trafficking. According to the Albuquerque Journal, the 
Santa Teresa station of Border Patrol's El Paso Sector apprehended only 
13 illegal immigrants south of the Potrillo Mountains in Fiscal Year 
2009. This was 0.1 percent of the 14,999 total apprehensions in the El 
Paso Sector, which covers the entire state of New Mexico and the two 
western-most counties in Texas. In the same year the Tucson sector had 
241,673 apprehensions. Comparing this sector to the Tucson sector would 
be inaccurate and misleading. The area south of the Potrillos has been 
protected as a Wilderness Study Area since the Reagan administration 
and nothing in this designation will change the ability of U.S. Customs 
and Border Protection to conduct their current level of security 
activities. The fact is, this region has never been a major security 
risk and nothing in the management plan for the newly designated 
national monument will change this reality.
    The Organ Mountains-Desert Peaks National Monument protects 
incredible scenic, natural, and historic sites including the 
petroglyph-lined canyons of the Sierra de las Uvas Mountains and the 
sites of numerous well-known western historical figures and events 
including Billy the Kid, Geronimo, and the Camino Real and Butterfield 
Stage Coach Trails. Protecting this area as a national monument was a 
victory for the local community.
    Over the course of the past decade the community has worked with 
then-Senator Jeff Bingaman and Senators Tom Udall and Martin Heinrich 
to arrive upon a consensus for appropriate boundaries that adequately 
protect the natural and cultural areas important to the community while 
maintaining security and access for ranching, law enforcement and other 
existing uses. The community has also had the opportunity to discuss 
the proposal with Interior Secretary Sally Jewell during a public 
meeting in January 2014 attended by nearly 1,000 local residents. This 
local input process resulted in an overwhelmingly locally-supported 
proposal that is endorsed by the local elected officials responsible 
for the well-being of local constituents as well as the agency 
responsible for securing our border.
    This overwhelming local support and statements of support from the 
U.S. Customs and Border Protection, Truman National Security Project, 
Vet Voice Foundation, military leaders, and relevant local governments 
including the Donna Ana County Commission would be impossible if this 
action were in any way detrimental to the safety and security of our 
border and local communities.
    Efforts to use false border security ``concerns'' are a transparent 
attempt to use fear-mongering tactics as a way to attack a locally-
driven conservation victory. We urge this committee to respect the 
analysis of U.S. Customs and Border Protection and wishes of the local 
community by refusing to engage in unnecessary and inflammatory 
rhetoric based on false arguments.
            Sincerely,
                                            Michael Casaus,
                       New Mexico Director, The Wilderness Society.


                          A P P E N D I X  I I

                              ----------                              

   Questions From Ranking Member Bennie G. Thompson for Brandon Judd
    Question 1a. Mr. Judd, how many Border Patrol Agents from the El 
Paso Sector are assigned to patrol the Organ Mountains-Desert Peaks 
Monument?
    Answer. Response was not received at the time of publication.
    Question 1b. Should the number of existing agents either be 
increased or decreased, and why?
    Answer. Response was not received at the time of publication.
    Question 2a. Is there a specific Border Patrol station in the El 
Paso Sector that is significant in protecting the Organ Mountains-
Desert Peaks Monument?
    Answer. Response was not received at the time of publication.
    Question 2b. Does the designation of the National monument call for 
increased resources from the El Paso Sector to facilitate border 
security?
    Answer. Response was not received at the time of publication.
    Question 3. How does the President's designation differ from other 
legislative proposals that have been offered by Representative Pearce 
who introduced H.R. 995, and by Senators Heinrich and Udall who 
introduced S. 1805?
    Answer. Response was not received at the time of publication.
    Question 4. Can the Border Patrol's law enforcement's efforts at 
the Organ Mountains-Desert Peaks National Monument be influenced by the 
Department of Interior's management of the monument under its general 
authorities, including those in the Federal Land Policy and Management 
Act of 1976?
    Answer. Response was not received at the time of publication.
    Question 5. New Mexico and Arizona do not have the same issues in 
managing illegal border crossings, especially on Federal lands, yet the 
difference in attempted border crossings has been stated otherwise. 
What evidence can be presented to the committee to indicate that New 
Mexico, specifically the Organ Mountains-Desert Peaks National Monument 
is at risk for increased illegal border crossings and other activities?
    Answer. Response was not received at the time of publication.
    Question 6. How does the President's designation affect border 
security in the Organ Mountains-Desert Peaks region?
    Answer. Response was not received at the time of publication.
    Question 7. How does border security in southern New Mexico compare 
to other regions of the Southwest Border?
    Answer. Response was not received at the time of publication.
    Question 8. How might the establishment of the Organ Mountains-
Desert Peaks National Monument influence the southbound movement of 
money and weapons into Mexico?
    Answer. Response was not received at the time of publication.
    Question 9a. How does the designation of the Organ Mountains-Desert 
Peaks National Monument affect the level of interagency cooperation 
necessary to patrol the land it includes?
    Answer. Response was not received at the time of publication.
    Question 9b. Or, will the monument's designation improve, impede, 
or have no impact on fostering interagency efforts between DHS and the 
Departments of Agriculture and the Interior?
    Answer. Response was not received at the time of publication.
    Question 10. In what way might the designation of the Organ 
Mountains-Desert Peaks National Monument further limit the cross-
deputization of Federal agents?
    Answer. Response was not received at the time of publication.
    Question 11. Are there particular environmental protections or 
rules granted by Organ Mountains-Desert Peaks' designation as a 
monument that could constrain the Border Patrol's activity in the area?
    Answer. Response was not received at the time of publication.
   Questions From Ranking Member Bennie G. Thompson for Todd Garrison
    Question 1. Sheriff Garrison, in what ways might the designation of 
the Organ Mountains-Desert Peaks National Monument change the policing 
environment in this area?
    Answer. From the beginning, our agency has asked for clarification 
on this very subject. My answer to this is: I do not know yet. I have 
asked to meet with Senators Heinrich and Udall to ensure that our 
agency will continue to have unfettered access to the areas that we 
currently patrol--up to and including the monument area.
    Question 2. Sheriff Garrison, how were local and State law 
enforcement agencies able to patrol the area prior to the lands' 
designation as a National monument?
    Answer. The Donna Ana County Sheriff's Office has a patrol division 
and a special projects division that utilized motorized vehicles and 
off-road ATVs to properly patrol the area and monitor for cross-border 
illegal activity. Our access to these areas is critical to monitor this 
activity; historically we know that what affects our county today will 
affect other areas in the United States within 24 hours.
    Question 3. How does the President's designation differ from other 
legislative proposals that have been offered by Representative Pearce 
who introduced H.R. 995, and by Senators Heinrich and Udall who 
introduced S. 1805?
    Answer. Geography is the best example of the differences between 
both proposals. Originally, Rep. Pearce suggested the Organ Mountains--
the spherical, iconic peaks that have been used in video campaigns for 
this designation--desperately needed to be protected from further 
development. No one has disputed this. Since that proposal, Senators 
Heinrich and Udall have taken the Organs and added to them every other 
mountain range in Donna Ana County: The Robledos, the Las Uvas, the 
Potrillos, and the Donna Ana mountains. Most of those areas fall within 
our jurisdiction, but we have not been included in any of the 
discussions on how the monument designation would affect our agency's 
ability to continue protecting the public. The Potrillos already 
enjoyed a wilderness designation--the highest level of protection you 
can give to an area from public access.
    Question 4. Can the Border Patrol's law enforcement efforts at the 
Organ Mountains Desert-Peaks National Monument be influenced by the 
Department of Interiors' management of the monument under its general 
authorities, including those in the Federal Land Policy and Management 
Act of 1976?
    Answer. Response was not received at the time of publication.
    Question 5. New Mexico and Arizona do not have the same issues in 
managing illegal border crossings, especially on Federal lands, yet the 
difference in attempted border crossings has been stated otherwise. 
What evidence can be presented to the committee to indicate that New 
Mexico, specifically the Organ Mountains-Desert Peaks National Monument 
is at risk for increased illegal border crossings and other activities?
    Answer. As was presented to the House Homeland Security 
Subcommittee on Oversight and Management Efficiency on July 10, 2014, 
our agency has intercepted many pieces of evidence that suggests 
illegal cross-border activity is still a very real problem in the 
desert areas we patrol in Donna Ana County. We have every reason to 
believe that this monument designation will provide an unmonitored 
corridor for this type of activity to skyrocket, much as it has done in 
Arizona in the Organ Pipe Cactus National Monument. Why would it not? 
This is what everyone on the southern side of the U.S./Mexico border 
wants: A straight shot into the United States that is free from law 
enforcement security.
    Question 6. How does the President's designation affect border 
security in the Organ Mountains-Desert Peaks region?
    Answer. See question 1. I can say that without the ability to 
effectively patrol this border area (with unfettered access), all one 
has to do is look at what is currently happening in the other border 
designated areas in TX and AZ. I believe this designation would be no 
different; we will experience the same problems.
    Question 7. How does border security in southern New Mexico compare 
to other regions of the Southwest Border?
    Answer. Our proximity to Ciudad Juaarez, Mexico is one very real 
difference. Once ranked as the most dangerous city in the world, we 
have been proactive in maintaining front-line patrols in our desert 
regions to prevent cross-border fallout from that part of Mexico. We 
also have private ranches along the U.S./Mexico border that have been 
impacted by illegal cross-border criminal activity.
    Question 8. How might the establishment of the Organ Mountains-
Desert Peaks National Monument influence the southbound movement of 
money and weapons into Mexico?
    Answer. Response was not received at the time of publication.
    Question 9. How does the designation of the Organ Mountains-Desert 
Peaks National Monument affect the level of interagency cooperation 
necessary to patrol the land it includes?
    Or, will the monument's designation improve, impede, or have no 
impact on fostering interagency efforts between DHS and the Departments 
of Agriculture and the Interior?
    Answer. Response was not received at the time of publication.
    Question 10. In what way might the designation of the Organ 
Mountains-Desert Peaks National Monument further limit the cross-
deputization of Federal agents?
    Answer. Response was not received at the time of publication.
    Question 11. Are there particular environmental protections or 
rules granted by Organ Mountains-Desert Peaks' designation as a 
monument that could constrain the Border Patrol's activity in the area?
    Answer. Response was not received at the time of publication.
    Question 12. Given that the Organ Mountains-Desert Peaks monument 
designation does not greatly alter the on-going management of these 
Federal lands, and the monument's southern boundary is about 5 miles 
from the United States' border with Mexico []
    Answer. I'm not sure what this question is asking? However, please 
do not be fooled by the 5-mile expanse from the border to the monument, 
this will not make things better. As it is now, people are able to 
cross the border and can easily drive or be driven to the boundary of 
the monument from El Paso, TX, ``one of the safest cities around'', as 
stated by Congressman Beto O'Rourke.
    Using GPS, a low-flying ultra-light can easily drop a load of drugs 
in the desert which is then picked up and carried to its destination.
    A load of people can be driven to the boundary of the monument and 
then walk, crossing the monument to their destination.
    The real problem is without active patrols in the monument, 
criminals will continue to be the ones with unfettered access and the 
5-mile buffer will stop nothing.
 Questions From Ranking Member Bennie G. Thompson for Marc R. Rosenblum
    Question 1a. Dr. Rosenblum, how might the establishment of the 
Organ Mountains-Desert Peaks National Monument influence the threat 
posed by transnational criminal organizations smuggling drugs into the 
United States?
    In what ways might the monument's designation make it either easier 
or more difficult for transnational criminal organizations to smuggle 
drugs or other contraband into the United States?
    Answer. Response was not received at the time of publication.
    Question 1b. Would Mexican transnational criminal organizations 
experience either an advantage or disadvantage as a result of the 
monument?
    Answer. Response was not received at the time of publication.
    Question 2. Dr. Rosenblum, how could the Organ Mountains-Desert 
Peaks National Monument potentially affect the actions of Mexican 
transnational criminal organizations?
    Answer. Response was not received at the time of publication.
    Question 3. How does the President's designation differ from other 
legislative proposals that have been offered by Representative Pearce 
who introduced H.R. 995, and by Senators Heinrich and Udall who 
introduced S. 1805?
    Answer. Response was not received at the time of publication.
    Question 4. Can the Border Patrol's law enforcement's efforts at 
the Organ Mountains-Desert Peaks National Monument be influenced by the 
Department of Interior's management of the monument under its general 
authorities, including those in the Federal Land Policy and Management 
Act of 1976?
    Answer. Response was not received at the time of publication.
    Question 5. New Mexico and Arizona do not have the same issues in 
managing illegal border crossings, especially on Federal lands, yet the 
difference in attempted border crossings has been stated otherwise. 
What evidence can be presented to the committee to indicate that New 
Mexico, specifically the Organ Mountains-Desert Peaks National Monument 
is at risk for increased illegal border crossings and other activities?
    Answer. Response was not received at the time of publication.
    Question 6. How does the President's designation affect border 
security in the Organ Mountains-Desert Peaks region?
    Answer. Response was not received at the time of publication.
    Question 7. How does border security in southern New Mexico compare 
to other regions of the Southwest Border?
    Answer. Response was not received at the time of publication.
    Question 8. How might the establishment of the Organ Mountains-
Desert Peaks National Monument influence the southbound movement of 
money and weapons into Mexico?
    Answer. Response was not received at the time of publication.
    Question 9. How does the designation of the Organ Mountains-Desert 
Peaks National Monument affect the level of interagency cooperation 
necessary to patrol the land it includes?
    Or, will the monument's designation improve, impede, or have no 
impact on fostering interagency efforts between DHS and the Departments 
of Agriculture and the Interior?
    Answer. Response was not received at the time of publication.
    Question 10. In what way might the designation of the Organ 
Mountains-Desert Peaks National Monument further limit the cross-
deputization of Federal agents?
    Answer. Response was not received at the time of publication.
    Question 11. Are there particular environmental protections or 
rules granted by Organ Mountains-Desert Peaks' designation as a 
monument that could constrain the Border Patrol's activity in the area?
    Answer. Response was not received at the time of publication.

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
